<html>
<title> - IMPROVING OUR COMPETITIVENESS: COMMON CORE EDUCATION STANDARDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                     IMPROVING OUR COMPETITIVENESS:
                    COMMON CORE EDUCATION STANDARDS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, DECEMBER 8, 2009

                               __________

                           Serial No. 111-43

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html





                  U.S. GOVERNMENT PRINTING OFFICE
53-732 PDF                WASHINGTON : 2020
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on December 8, 2009.................................     1

Statement of Members:
    Hon. John Kline, Senior Republican Member, Committee on 
      Education and Labor, prepared statement of.................    53
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
    Thompson, Hon. Glenn, a Representative in Congress from the 
      State of Pennsylvania......................................     4

Statement of Witnesses:
    Allen, Cathy, vice chair, St. Mary's County, MD, Board of 
      Education..................................................    32
        Prepared statement of....................................    34
    Kubach, Douglas, Pearson Assessment & Information............    29
        Prepared statement of....................................    31
        Additional submissions:
            ``Thoughts on an Assessment of Common-Core 
              Standards''........................................    54
            Pearson response to Race to the Top, Internet address    64
    Ritter, Hon. Bill, Jr., Governor, State of Colorado..........     6
        Prepared statement of....................................     8
    Wilhoit, Gene, executive director, Council of Chief State 
      School Officers (CCSSO)....................................    23
        Prepared statement of....................................    26
        Additional submissions:
            Common Core Standards Memorandum of Agreement........    64
            News release, June 1, 2009, ``Forty-Nine States and 
              Territories Join Common Core Standards Initiative''    66
            ``The Common Core State Standards Initiative''.......    67
            ``The Common Core State Standards Initiative,'' 
              frequently asked questions.........................    68

 
     IMPROVING OUR COMPETITIVENESS: COMMON CORE EDUCATION STANDARDS

                              ----------                              


                       Tuesday, December 8, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Payne, Scott, Woolsey, 
Hinojosa, McCarthy, Tierney, Wu, Holt, Davis, Hirono, Altmire, 
Clarke, Fudge, Polis, Tonko, Titus, Chu, Petri, Castle, Ehlers, 
Guthrie, Roe and Thompson.
    Staff Present: Tylease Alli, Hearing Clerk; Calla Brown, 
Staff Assistant, Education; Alice Johnson Cain, Senior 
Education Policy Advisor (K-12); Denise Forte, Director of 
Education Policy; David Hartzler, Systems Administrator; Fred 
Jones, Staff Assistant, Education; Sharon Lewis, Senior 
Disability Policy Advisor; Stephanie Moore, General Counsel; 
Alex Nock, Deputy Staff Director; Joe Novotny, Chief Clerk; 
Lillian Pace, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education; Helen Pajcic, Education 
Policy Associate; Kristina Peterson, Legislative Fellow, 
Education; Rachel Racusen, Communications Director; Alexandria 
Ruiz, Administrative Assistant to Director of Education Policy; 
Melissa Salmanowitz, Press Secretary; Daniel Weiss, Special 
Assistant to the Chairman; Kim Zarish-Becknell, Policy Advisor, 
Subcommittee on Healthy Families and Communities; Mark 
Zuckerman, Staff Director; Stephanie Arras, Minority 
Legislative Assistant; James Bergeron, Minority Deputy Director 
of Education and Human Services Policy; Kirk Boyle, Minority 
General Counsel; Barrett Karr, Minority Staff Director; Alexa 
Marrero, Minority Communications Director; Ryan Murphy, 
Minority Press Secretary; Susan Ross, Minority Director of 
Education and Human Services Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Miller. The Committee on Education and Labor will 
come to order.
    This morning our committee meets to hold the second in a 
series of hearings looking at how we can improve our global 
competitiveness through State-led adoption of common core 
standards that are internationally benchmarked.
    At our first hearing in April, we learned about the State-
led effort to improve academic standards in our schools. 
Witnesses told us about the momentum and the support from not 
only the education community, but business leaders and 
stakeholders from across the political spectrum. I am glad to 
see bipartisan support come from Members of Congress.
    Today, we will hear from our panel about the significant 
progress that has been made since that hearing. Forty-eight 
States have now signed on to this initiative. They agree that 
this State-led effort is critical to regain our role as a world 
leader in education. They know that we must ensure that all 
students are prepared for success in college or a career. I 
couldn't agree more, and we need to do everything we can to 
support this effort.
    One of the problems we have encountered with No Child Left 
Behind is that the law required every State to set its own 
academic standards and use assessments aligned to those 
standards. Without a unified set of strong expectations, many 
States, unfortunately, chose to lower the bar, creating 
essentially a race to the bottom. The result is that the 
standards to which students are held varied widely from State 
to State. The quality of education a student may receive is 
left up to the ZIP Code, and it is a matter of geographical 
luck.
    Having 50 different standards in 50 different States 
undermines the American education system. In this system a high 
school diploma doesn't guarantee that a student has mastered 
the academic tools that they will need to compete in today's 
world. All students should be challenged to develop the complex 
skills and knowledge they need to succeed in jobs in the 
future, to be college ready and to be workplace ready.
    We are in the process of rebuilding our economy and 
restoring our competitiveness. That means that focusing not 
just on the immediate job creation, but what we can do to build 
a solid economic foundation for generations to come.
    Today's students, our future workers, need to be prepared 
for jobs in high-growth industries, to innovate, and to think 
creatively to help solve the great challenges of the next 
generation, but we are still lacking academically compared to 
other high-performing countries. American students lag about a 
year behind students in top-performing countries in math. Even 
our best students perform worse in math than their peers in 22 
other countries. Only 1.3 percent of our 15-year-olds in this 
country performed at the highest level of math on international 
assessment tests. Yet at the very same time we see States like 
Massachusetts and Minnesota that run right with the best-
performing countries in the rest of the world, outperforming 
countries such as Norway and Sweden. And so this wide range of 
performance is very troubling when you are trying to maintain 
and build a world-class economy and competitiveness.
    In the top 10 countries, up to 7 times as many students 
were performing at the highest level. It is clear we have a lot 
of work cut out for us.
    An important step in this State-led effort is the common 
core of internationally benchmarked standards that can prepare 
all children in this country to achieve and succeed in this 
global economy. The historic investment we made with President 
Obama's Recovery Act was a great start. Secretary Duncan's Race 
to the Top Fund is already helping spur reform in standards and 
assessments without yet having spent a dollar. This gives us a 
reason to be optimistic that we will see a seismic shift in the 
education that this country needs.
    A recent survey from the Center on Education Policy showed 
that States are confident they can meet the assurances required 
by the Recovery Act, especially to create and adopt rigorous 
academic standards.
    I commend the Governors, the chief State school officers, 
Achieve, ACT, and the College Board and all of the partners in 
the common core initiatives for their leadership. I look 
forward to hearing from our witnesses about how we can ensure 
that all students in every State and every grade get a world-
class education that fully prepares them for colleges and for 
careers.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    This morning, our Committee meets to hold the second in a series of 
hearings looking at how we can improve our global competitiveness 
through a state-led to adopt a common core of internationally 
benchmarked standards.
    At our first hearing in April, we learned about the state-led 
effort to improve academic standards in our schools.
    Witnesses told us about the momentum and support from not just the 
education community, but business leaders and stakeholders from across 
the political spectrum.
    I was glad to see bipartisan support from Members of this 
Committee.
    Today we will hear from our panel about the significant progress 
that has been made since that hearing. Forty-eight states have now 
signed on to this initiative. They agree that this state-led effort is 
critical to regain our role as a world leader in education.
    They know that we must ensure that all students are prepared for 
success in college or a career.
    I couldn't agree more and we need to do everything we can to 
support their effort. One of the problems we have encountered with No 
Child Left Behind is that the law required every state to set its own 
academic standards and use assessments aligned with those standards.
    Without a unified set of strong expectations, many states chose to 
lower the bar--creating a race to the bottom.
    The result is that children in Mississippi may not be pushed with 
the same rigor as children in Massachusetts. The quality of education a 
student may receive is left up to their zip code. It's a matter of 
geographical luck. Having 50 different standards in 50 different states 
undermines America's education system.
    In this system, a high school diploma doesn't guarantee that a 
student has mastered the academic tools they will need to compete in 
today's world.
    All children should be challenged to develop the complex skills and 
knowledge needed to succeed in the jobs of the future.
    We are in the process of rebuilding our economy and restoring our 
competitiveness.
    That means focusing not just on immediate job creation, but also 
what we can do to build a solid economic foundation for generations to 
come.
    Today's students--our future workers--need to be prepared for jobs 
in high-growth industries, to innovate, and to think creatively to help 
solve our next great challenges.
    But we're still lacking academically compared with other high-
performing countries.
    American students lag about a year behind students in the top-
performing countries in math. Even our best students performed worse in 
math than their peers in 22 other countries.
    Only 1.3 percent of 15 year olds in this country performed at the 
highest level in math on an international assessment test. In the top 
10 countries, up to seven times as many students were at the highest 
levels. It is clear we have our job cut out for us.
    An important step is this state-led effort for a common core of 
internationally-benchmarked standards that can prepare all children in 
this country to achieve and succeed in this global economy.
    The historic investments we made in President Obama's Recovery Act 
were a great start.
    Secretary Duncan's Race to the Top Fund is already helping spur 
reform in standards and assessments without yet having spent a dollar. 
This gives us reason to be optimistic that we will see the seismic 
shift in education that our country needs.
    A recent survey from the Center on Education Policy showed that 
states are confident they can meet the assurances required by the 
Recovery Act, especially to create and adopt rigorous academic 
standards.
    I commend the Governors, chief state school officers, Achieve, ACT, 
the College Board, and all of the partners in the common core 
initiative for their leadership.
    I look to hearing from our witnesses about how we can ensure that 
all students, in every state, in every grade, get a world-class 
education that fully prepares them for college and careers.
    Thank you.
                                 ______
                                 
    Chairman Miller. With that, I would like now to recognize 
Mr. Thompson, the senior Republican this morning on the 
committee.
    Mr. Thompson. Thank you, Chairman Miller.
    We are here today to take a closer look at the Common Core 
State Standards Initiative and how coordinated efforts to 
strengthen academic standards can enhance American 
competitiveness.
    The common core initiative is being developed through the 
joint leadership of the National Governors Association Center 
for Best Practices and the Council of Chief State School 
Officers. The goal of the initiative is to provide a voluntary 
research and evidence-based set of standards for mathematics 
and English language arts. I want to emphasize the word 
``voluntary'' in that description.
    While the common core is still under development, I don't 
believe anyone involved in the initiative intended for it to 
become the one and only set of academic standards in the United 
States. For that reason, I would like to focus my remarks this 
morning not on the quality of the standards themselves, but on 
what the Federal Government is doing with those standards.
    Secretary Duncan has not been shy about his intention to 
dramatically reshape education through the Race to the Top 
Fund. One key component in the Race to the Top guidelines is 
the requirement that States participate in and adopt a set of 
common academic standards. The Department has even gone one 
step further, offering to provide funding to help States 
develop assessments based on those common standards. The only 
common multistate academic standards that I am aware of are 
those being developed through the common core initiative; 
therefore, it stands to reason that any State wishing to 
receive funding through the Race to the Top program will be 
mandated to adopt the common core and to test its students 
based on those standards. In other words, the common core is 
being transferred from a voluntary, State-based initiative to a 
set of Federal academic standards with corresponding Federal 
tests.
    I know I can speak for the committee when I say that we 
applaud the Secretary's enthusiasm when it comes to education 
reform, yet we have been particularly troubled by this aspect 
of the Race to the Top guidelines and the ramifications of 
Federal involvement in academic standards. We know academic 
standards vary widely from State to State, and some States have 
set the bar too low, leaving their students unprepared to 
compete on the world stage; yet other States have risen to the 
challenge of setting extremely rigorous standards and holding 
their students accountable to these high expectations.
    The common core has the potential to support those States 
whose standards are falling short, but mandatory adoption could 
have the unintended consequence of lowering the bar for States 
and local communities that have voluntarily established 
standards even more rigorous than those developed through the 
common core.
    I also have questions about what role parents and local 
education officials will play if the common core becomes a de 
facto national curriculum. As a former school board member, I 
can attest that school boards have been active in the 
development of academic standards and assessments. We care 
about the kids that we serve. This allows parents, teachers, 
and communities to have a voice in what our children are 
taught. A voluntary common core could serve as a baseline to be 
modified and enhanced based on local needs, but by mandating 
adoption of the common core, the Department of Education could 
undermine the ability of local educators to shape and customize 
what gets taught in individual classrooms.
    The common core initiative is an important tool in the 
effort to strengthen academic standards, but it is only one 
element of what should be a much broader strategy on the part 
of States and local communities working in partnership with the 
public and private sectors to enhance American competitiveness. 
I applaud the efforts to develop a voluntary set of rigorous 
academic standards; however, they must not be undermined by 
Federal intrusion. I look forward to discussing these concerns 
with the witnesses today.
    I yield back the balance of my time.
    Chairman Miller. I thank the gentleman.
    Before we get to our first witness, I want to talk a moment 
of personal privilege to thank Alice Johnson, who is sitting 
here to the left of me, who has been with this committee since 
2003. Alice will be leaving us shortly for a wonderful 
professional opportunity in the field of education. But while 
she has been on this committee and served this committee, she 
has been relentless in the pursuit of excellence on education 
on behalf of children and parents and teachers, and the entire 
education community. She has responded to the needs and the 
requests of our Members on both sides of the aisle to try to 
ferret out the best policies and answers and information that 
can be available to us. She rarely takes ``no'' for an answer. 
And if you ask a question, you will probably get an answer back 
in a matter of a few moments, almost it seems like. As crazy as 
my requests have been from time to time to look at some issues, 
she has always responded to them.
    She will be joining the Hope Street Group, and I think they 
will be very fortunate to have her professional talents, her 
good cheer, her personality, and her willingness to assist 
others and to impart information to others.
    On behalf of the committee, Alice, we want to thank you so 
very much, wish you well, and tell you how much we appreciate 
all of the service you have given to this committee over the 
last several years. Thank you so much.
    The side benefit of this is she is going to get to spend 
more time with her husband Frank, and Shawn and Luke. I know 
they are looking forward to it.
    Thank you.
    Our colleague Mr. Polis is going to introduce our first 
witness.
    Mr. Polis. Thank you, Mr. Chairman.
    Governor Bill Ritter was elected as Colorado's 41st 
Governor in the year 2006. He and his Lieutenant Governor 
Barbara O'Brien, who has also appeared before this committee 
and was one of the original authors of our State charter school 
law, are leading the efforts on statewide education reform both 
at the K-12 level and the higher education level. They have 
created a P-20 Education Council to bring together stakeholders 
from across the education continuum. They have created a jobs 
cabinet and, in partnership with lawmakers, the State board of 
education and educators, are working to reform standards.
    Prior to becoming Governor, Mr. Ritter served as the 
district attorney of Denver for 12 years. He earned his 
bachelor's degree from Colorado State University and his law 
degree from the University of Colorado. He served on the Denver 
Public Schools Commission on Secondary School Reform, and 
recently was named the Chair of the National Governors 
Association Education, Early Childhood and Workforce Committee.
    Most importantly, he is married to a former schoolteacher, 
Jeannie, and their eldest child goes to college in my 
congressional district, University of Colorado in Boulder, and 
their youngest child is a junior at Denver East High School.
    It is my honor to introduce our Governor from the great 
State of Colorado, Governor Bill Ritter.
    Chairman Miller. Governor, welcome to the committee. Thank 
you so much for your involvement on this issue, and also for 
taking your time to come and to give us a bit of a progress 
report on how it is going.
    What we will do is when you begin speaking, there will be a 
green light. You will have about 5 or 6 minutes to impart the 
points you want to make to us. There will be an orange light 
that will tell you you have a minute left. When you are done, 
we will open it up for questions. I know you have some time 
constraints, so we will try to get through as many people as we 
can. When you have to leave, we understand that, so let us 
know. Welcome.

    STATEMENT OF HON. BILL RITTER, JR., GOVERNOR OF COLORADO

    Governor Ritter. Thank you, Mr. Chairman.
    Chairman Miller, Ranking Member Thompson and members of the 
committee, thank you for inviting me to testify to the Common 
Core State Standards Initiative. On behalf of the National 
Governors Association and as the Chair of the Education, Early 
Childhood and Workforce Committee, I am honored to be with all 
of you today.
    Our economy is now truly global. Competitiveness of our 
education system absolutely must reflect this. To maintain 
America's competitive edge, all of our students need to be well 
prepared, ready to compete not only with their American peers, 
but also with students from around the world. The State-led 
development of the common core standards is a critical first 
step to bring about real and meaningful transformation of State 
education systems to benefit all students.
    I appreciate firsthand how important this effort is to the 
competitiveness of State workforces, and similarly how 
important it is to ensure that it remain in the hands of the 
States. In 2008, I pushed for the development of State-level 
policy that would align K-12 and higher education standards 
with the goal of ensuring that all students are ready for entry 
into postsecondary education or the workforce upon exit from 
high school. We called this effort the Colorado Achievement 
Plan for Kids, or CAP for K, and it represented the first time 
Colorado's education systems worked together in earnest on 
common student-oriented policies. It was truly game-changing 
education policy in my State. For the first time, we shifted 
our collective attention from annual assessments and simple 
punitive accountability policies to a focus on relevancy, 
student growth, and an expectation that all students, 
regardless of their station in life, should be prepared for 
college and career by the time they exit from high school.
    From my firsthand experience, I caution that this work 
takes time to implement well. After nearly 2 years of 
concentrated effort and deliberate outreach, we are just now at 
the point of State-level adoption. Next we will turn to 
developing a new system of assessments, and then to supporting 
local school district adoption and classroom implementation. We 
have been moving at near light speed to develop, adopt, and 
implement these new standards and assessments, but the tools 
will not be ready for use until 2012.
    Although there are 48 States and territories involved in 
the effort to develop common standards, it is important to 
respect that each is in a different place regarding its 
readiness to adopt and implement the common core standards.
    I am confident that this process has a great chance for 
success, but adoption of new standards is simply a step toward 
meaningful education reform. So I return to the critical point: 
The common core standards initiative is and must be a State-led 
effort. Adoption of the common core is and must be voluntary 
for States.
    A decision to adopt will be made in every State by State 
and local leaders working with teachers, parents, businesses 
and citizens. To develop the standards, NGA and the CCSSO have 
been using the best available evidence both nationally and 
internationally. The first round of stated options should be 
considered version 1.0. Future and ongoing revisions are 
inevitable and necessary. Moreover, future research will inform 
improvements and expand the body of evidence.
    States are already planning for the sustainability of this 
work and the possible development of standards in additional 
subjects. Congress can support participating States by setting 
high expectations for results and allowing Governors to lead. 
Give us the clear authority to experiment, innovate and define 
how to get the work done. Governors need your leadership and 
assistance. The Federal Government has a critical supporting 
role to unleash the power of State-led action. Common core 
standard initiative is just a tip of the iceberg on the power 
of State-led action.
    In the next few months, we expect to begin working on the 
reauthorization of the Elementary and Secondary Education Act. 
Ideally, this effort would replicate the State-Federal 
partnership that I just described. Work must remain on 
assessments, accountability, human capital, research and 
development, and so much more. Governors are committed and 
eager to work with the committee on this reauthorization.
    So again, Chairman Miller and members of the committee, on 
behalf of the Governors across the Nation, I really appreciate 
the opportunity to address you today, and I am happy to answer 
any questions you may have.
    Chairman Miller. Thank you very much for your testimony.
    [The statement of Governor Ritter follows:]

    Prepared Statement of Hon. Bill Ritter, Jr., Governor, State of 
 Colorado; Chair, Education, Early Childhood and Workforce Committee, 
                     National Governors Association

    Chairman Miller, Ranking Member Kline, and members of the 
committee, thank you for inviting me to testify on the Common Core 
State Standards Initiative. On behalf of the National Governors 
Association and as Chair of the Education, Early Childhood and 
Workforce Committee, I am honored to be with you today.
    Our economy is now truly global, and the competitiveness of our 
education system must reflect this. To maintain America's competitive 
edge, all of our students need to be wellprepared and ready to compete 
not only with their American peers, but also with students from around 
the world. The stateled development of common core state standards is a 
critical first step to bring about real and meaningful transformation 
of state education systems to benefit all students.
    I know through my experience upgrading Colorado's state standards 
how important these decisions are to setting the path for our state 
education's progress.
Update on Common Core State Standards Initiative
    Since my colleague Georgia Governor Sonny Perdue testified before 
this committee in April 2009, states have made marked progress in 
improving our education systems compared to international benchmarks. 
Fortyeight states, two territories and the District of Columbia have 
joined the Common Core State Standards Initiative, which charges the 
National Governors Association (NGA) and Council of Chief State School 
Officers (CCSSO) to jointly develop common core standards in English 
language arts and mathematics by February 2010.
    I believe that this initiative has a high probability for success. 
Several major national organizations, including the Alliance for 
Excellent Education, the American Association of School Administrators, 
the American Federation of Teachers, the Business Roundtable, the 
Council of Great City Schools, the Hunt Institute, the National 
Association of State Boards of Education, the National Education 
Association, the National Parent Teacher Association, and the State 
Higher Education Executive Officers are supporting the initiative. 
Endorsing partners also include businesses such as GlaxoSmithKline and 
the Intel Corporation.
    The stateled common core process is intended to produce ``fewer, 
clearer, and higher'' standards that are researchand evidencebased as 
well as internationally benchmarked. In preparing these standards, we 
drew examples from the most competitive states in the nation. The goal 
is to ensure that all students who meet these new standards will have 
the knowledge and skills necessary to succeed in college and a career, 
thereby improving the nation's competitiveness in today's global 
economy.
    On behalf of participating states, NGA and CCSSO are taking 
responsibility for the production of the standards. These organizations 
have solicited the input of a number of leading experts and 
practitioners to assist in the development of collegeand 
careerreadiness and K12 standards for English language arts and 
mathematics. In addition, the organizations have sought input from 
states, content groups, educators' associations, and the general 
public. This feedback will be used to refine drafts and ensure that the 
standards are informed by the best research and practice. Finally, a 
validation committee of independent national experts--all of whom were 
nominated by state and national organizations' leaders and confirmed by 
governors--will conduct a final review of the standards process and 
products.
    The final draft of the standards will be released in February 2010. 
A public draft of the college and career readiness standards was 
released in September 2009; NGA and CCSSO received nearly 1,000 survey 
responses to these standards. All the public comments are being 
reviewed, and work groups will determine the revisions necessary to 
respond to the comments received. The first public draft of the K12 
standards will be available in January 2010. A detailed description of 
the development process as well as information about individuals and 
organizations involved in the process is available on 
www.corestandards.org. A summary chart explaining the process is also 
enclosed with this testimony.
State Adoption of Standards
    Once the standards have been finalized, states will decide whether 
to adopt the English language arts and mathematics standards for the 
students in their states. Let me stress this important point: The 
adoption of the stateled and developed common core state standards is 
voluntary and allows for public input. States that choose to adopt the 
standards will be responsible for demonstrating that they have adhered 
to the terms of adoption. This is and must remain a stateled effort.
    The appropriate authority in each state, working with state and 
local leaders, teachers, and parents, will make the decision whether to 
adopt the standards. For many states, a state board of education will 
make this decision; in other instances, the chief state school officer, 
governor and/or legislature may play a role in the decision. The 
stateled process of adoption will take time and will vary from state to 
state. The NGA/CCSSO process gives states up to three years to adopt.
State Leadership for Education Improvement
    Governors recognize that the adoption of a strong set of academic 
standards is just an initial step toward upgrading state education 
systems. States have both the authority and the responsibility to 
provide students with a highquality education, and many states are 
already deeply engaged in efforts to raise standards, advance teaching 
quality, and improve lowperforming schools. International benchmarking 
provides an additional tool for making that process more effective, 
offering insights and ideas that cannot be garnered solely from looking 
within and across state lines.
    Governors are encouraged that many states have begun to move 
forward on the first of five bold recommendations included in the 
Benchmarking for Success: Ensuring U.S. Students Receive a WorldClass 
Education report issued by the National Governors Association, the 
Council of Chief State School Officers, and Achieve, Inc. The highlevel 
advisory group that participated in the development of this report, 
including Colorado's chief, Commissioner Dwight Jones, unanimously 
agreed to five statelevel action steps:
    <bullet> Upgrading state standards by adopting a common core of 
internationally benchmarked standards in math and language arts for 
grades K12 to ensure that students are equipped with the necessary 
knowledge and skills to be globally competitive;
    <bullet> Leveraging states' collective influence to ensure that 
textbooks, digital media, curricula, and assessments are aligned to 
internationally benchmarked standards and draw on lessons from 
highperforming nations and states;
    <bullet> Revising state policies for recruiting, preparing, 
developing, and supporting teachers and school leaders to reflect the 
human capital practices of topperforming nations and states around the 
world;
    <bullet> Holding schools and systems accountable through 
monitoring, interventions, and support to ensure consistently high 
performance, drawing upon international best practices; and
    <bullet> Measuring statelevel education performance against global 
benchmarks by examining student achievement and attainment in an 
international context to ensure that, over time, students receive the 
education they need to compete in the 21st century economy.
    With a set of common standards in place, states may be in a 
position to move forward with several of these important 
recommendations.
    NGA will soon release a publication proposing an approach to a 
common and comprehensive state assessment system that would maximize 
alignment with the common core standards; allow for comparisons across 
students, schools, districts, and states; and form the foundation for a 
new accountability system, while ultimately providing information that 
supports effective teaching and learning and prepares students for 
college and postsecondary careers.
Federal Government Support
    While governors believe states must lead the international 
benchmarking and common state standards development effort, the federal 
government can play a critical role to support statelevel reform 
efforts--specifically, one that is less restrictive and mandatedriven 
and more encouraging of innovation.
    Through the creation of the Race to the Top Fund, Congress and the 
Administration took the first step in shifting the focus of federal 
policy from a punitive, mandatedriven compliance system toward a 
federalstate partnership that supports stateled innovation. For 
example, the Race to the Top Fund competition provides carrots--not 
sticks--to voluntary state adoption of common standards. Moreover, the 
federal government also wisely recognized that standards must be led 
and developed by states, for states. For this reason, I would like to 
thank this committee, the U.S. Department of Education, and the 
Administration for recognizing governors' requests to extend the 
timeline for adoption of state standards as part of the Race to the Top 
application. Governors appreciate the acknowledgement of states' 
individual contextual adoption requirements.
    Moving forward, the reauthorization of the Elementary and Secondary 
Education Act will be a critical opportunity to rethink and evolve the 
new federalstate partnership and capitalize on the power of stateled 
innovations to improve education. Much work remains, and governors 
stand ready to work with the committee on this important 
reauthorization.
Conclusion
    In this time of economic difficulty, we recognize more than ever 
the importance of educational preparation to the wellbeing of our 
citizens, our states, and this nation. Thank you for your ongoing 
interest and support for a stateled process to develop a common core of 
state standards.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Miller. You raised the issue which I think many of 
us on this committee have heard or have discussed with 
education leaders in our own States, and that is sort of the 
constant question of how to meld our current standards with the 
changes we will have to make. Many States would argue that 
their standards may be better, higher, whatever the adjective 
is that you want to use, and other States' clearly are not 
sufficient. How does that melding process take place so we end 
up with a common standard, we end up with an internationally 
benchmarked standard so we know how our students are doing 
compared with our competitors in a very competitive economy?
    Governor Ritter. One of the things that should be 
recognized, like you mentioned and I mentioned, 48 States are 
participating in that. That participation alone is helpful in 
knowing where the standards fall out relative to what States 
already have in place.
    Secondly, the ambition has always been that the standards 
be set high, and that we not do what we have done in other 
situations where we set the standards lower in order to make 
sure that there is achievement and progress as defined by law.
    Really these standards are rigorous, and the intention has 
always been not to back off on rigor. We believe at the end of 
the day they will be fairly rigorous.
    It is interesting, we were in the process--apart from the 
National Governors Association process, the State of Colorado 
was in the process of forming our own content standards, and 
when we received the first draft from the policymakers, there 
was very much sort of an early alignment, because States are 
thinking the same way about this. And there is a fair body of 
evidence about what rigorous standards look like.
    For our purposes, we believe there will be more alignment 
than you might expect when you have 48 States working on it 
because of the body of evidence that has been built up about 
what is necessary to be rigorous and benchmark it 
internationally.
    Chairman Miller. Thank you.
    One of the tensions in No Child Left Behind is that because 
we took the States as we found them when we passed the law, the 
challenge really is to meet how your children are doing against 
your State standards, be that what it was, and States have 
changed their standards back and forth. But when you go to try 
to hold districts and States accountable, they very often say, 
we have higher standards, so it is more difficult for the same 
number of students to make AYP as in another State. You 
constantly hear this back and forth, that the system isn't fair 
because of the differences in State standards that exist to 
date. And it raises a lot of political tensions because the 
theory is that ``we should be given some leeway because our 
standards are higher. That State is doing better because their 
standards are lower.'' It is an interesting political 
discussion, but it doesn't tell us where we should be in terms 
of the performance of students against what standards.
    But I assume as States make the decision, should they make 
the decision, to participate, that argument sort of goes by the 
wayside, and if you have an ability to have a good growth 
model, we will be able to determine whether States across the 
country are making the kind of progress that is necessary.
    Governor Ritter. Mr. Chairman, I think that is correct, 
because the starting point is that we believe it is important 
for our students to compete globally, compete with other kids 
across the world. So we start with the notion what is it going 
to take for them to do that. You have to look at the 
concentration of higher ed degrees as just one measure of that, 
but in order to get to the place where we can compete there, we 
have to look at the K-12 system and ask, how are kids doing in 
terms of how they come out of high school, what numbers are 
graduating, what percentage, and then what remediation is 
necessary for kids when they enter higher ed? And all of those 
things are part of where you want to wind up in terms of 
defining it.
    For our purposes, a common set of standards that are 
internationally benchmarked allows us to think about that end 
point, where we want kids to end up. And then, as you said, 
growth-modeling that where you change the standards, but you 
also change the assessments and the way to assess that and then 
model it, see how kids are doing along the spectrum, and there 
is more commonality among States in doing that. You have a 
better way to answer the question about how these kids will do 
when they compete on a global level or compete even among other 
States. There is a real ambition on the part of the Department 
of Education to ensure that there is benchmarking among States 
as a way for us to measure as well. So I think it does do away 
with some of the complaints that our State might be different, 
and therefore we are being punished unfairly by what was in the 
past No Child Left Behind.
    Chairman Miller. Thank you.
    Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Governor Ritter, thank you so much for coming here and 
providing your testimony today and your leadership on early 
childhood education as part of the association. I very much 
appreciate it.
    I have heard from a number of States that have high 
academic standards that they support the common core 
initiative, but may not adopt its final standards because their 
own existing State standards are higher, somewhat related to 
the conversation you just had. Right now it is too early to 
know since the standards are still under development, yet these 
States will be penalized for not adopting common standards if 
they choose to compete for the Race to the Top.
    The Department is, in effect, encouraging some States to 
lower their State standards, which I think is an extremely bad 
idea. I am not sure that you have talked to the Department 
about their involvement within this initiative. Why would they 
decide to put this requirement in the Race to the Top? What has 
been the response to these concerns raised by these States?
    Governor Ritter. I have actually spoken with the Secretary 
about Race to the Top. And, again, in my role as the Chair of 
the Education, Early Childhood and Workforce Committee at the 
National Governors Association, we have had these 
conversations.
    First of all, I think the ambition here is that States look 
at content standards as an important part of reform, and that 
if States have standards that they have set higher than what 
might ultimately become the common core standards or when we 
are ready for States to look at them to adopt them, I think 
that is a good problem to have.
    We did talk with the Secretary about this notion that there 
must be some kind of compliance with the standards in order to 
compete in the Race to the Top, and it is clear to me that you 
don't have to have identical standards, but you do have to have 
some level of compliance in order for you--I think you are 
going to have to--as a State going to have some level of 
compliance because of this ambition of developing content 
standards.
    I think we were the first State in the country--and I think 
Texas is maybe second or may have done it kind of 
contemporaneously with us--the first State in the country to 
actually rework all of our content standards. This is something 
that the Department of Education has as an ambition,and one of 
the ways for States to be able to compete is to understand that 
important role. If you leave it out altogether, it doesn't 
necessarily get done, and I think that is what the Department 
of Education is trying to focus on. I am not trying to speak 
for them.
    What I can tell you is we as Governors think it is 
important that this process was State led, and we have had the 
participation we have had from States, and we do know there are 
States that may have participated and at the end of the day may 
not adopt. But the fact of the matter is we have what we 
believe is a great evidence-based product that States can look 
to and know to get us to a place where we are comfortable 
saying it is something we can benchmark against 
internationally.
    Mr. Thompson. I certainly support your commitment that 
these are--the setting standards, for the States to do that and 
making it voluntary.
    As a former school board member, I am always, I guess, 
curious to see within the process as these are being developed. 
I know they are still under development. As opposed to a Race 
to the Top, I have always defaulted to raising, developing each 
child's individual potential, and while we have children that 
certainly are destined for a 4-year college program and that 
kind of academic preparation, we have children who are going to 
do extremely well in trade school or technology training or 
community college. Some of those we are preparing just to go 
into the workforce, or those who may choose go into the 
military and serve the country and develop a trade or a skill 
there.
    Based on your interaction looking at this program, is the 
program that flexible to be able to address the needs of each 
individual child's potential as opposed to a cookie-cutter 
approach, which is kind of what the Federal Government has 
imposed on our States and local school boards up to this point?
    Governor Ritter. The first part of this common core 
standards initiative has been about two things: math and 
English language arts. We have developed the common standards 
with those two things and have not gone to the other parts of 
the education system because we had to start somewhere, and I 
think there is not right now agreement necessarily on whether 
or not you can develop common standards on vocational and 
technical education.
    I will tell you, Governors, I think, understand the 
importance of technical and vocational education. We passed in 
Colorado this past year a concurrent enrollment bill that 
allows students to stay in high school and get both a high 
school diploma and an associate's degree, and I think we are 
the first State in the country to make that available 
statewide. Those associate degrees very much can be out of a 
vocational or technical discipline.
    It was important for us as part of thinking about how to 
get kids to graduate from high school to give them some 
additional light at the end of the tunnel, and these common 
standards won't change that. What they have changed is the 
fundamentals that are necessary to be able to get through a 
high school program and then really to be able to manage some 
type of a college curriculum. Whether it is a junior or 
community college, you have to start with math and English 
language arts in order just to have the fundamentals in place.
    Mr. Thompson. Thank you, sir.
    Chairman Miller. Mrs. McCarthy.
    Mrs. McCarthy. Thank you, Governor, for being here and 
testifying.
    As you were testifying, I was thinking about a couple of my 
schools back in my district. One school is certainly in a very 
diverse community. I have toured that school for a couple of 
years now. From seeing the principal, the superintendent, the 
teachers and students, they have all set higher standards for 
all of them. And I think one of the important things that we 
learned from this particular school was that everybody expected 
them to do better, these parents, which we know is probably the 
most difficult part, trying to get the community involved with 
the students' life.
    My district is changing on a yearly basis. I have several 
schools that are failing, constantly failing. One school was 
taken over from the State almost 5 years ago, still no 
improvement. I am trying to think where does this all start?
    I know my State is changing from the Board of Regents on 
what they are going to be doing as far as the teaching colleges 
in our State. Many feel our teachers are graduating not with 
the knowledge that they need to be able to teach. And what 
always blew my mind is that the youngest teachers start with 
kindergarten, first, second, and third grade, and yet we know 
that is the most important time to reach these students.
    Also, the diversity of language in many of our States now, 
I certainly see in my district, some districts have to teach 
eight or nine languages and deal with the children on trying to 
get them through. With the younger students we are doing fine. 
Junior high and up, we end up losing our students. That is a 
shame because they end up going into gangs.
    I see where my State is going, and I see where you are 
certainly talking about the flexibility. Many of us thought 
Leave No Child Behind, we were actually going to look at the 
child, individually, and then work with that child to meet 
their best potential. So I guess what I am looking at as we go 
for Race to the Top, it is a nice title, but I still have 
concerns are we going to be able to do this.
    Your State has taken a lead. All Governors should be taking 
a lead mainly because it is profitable for the State. If you 
have well-educated students in your State, you will have 
businesses come to your State, technology come to your State. 
It is good for the country.
    One other thing. I belong to what they call the NATO 
Parliamentarians, and education is one of the big topics we 
always talk about. And yet I hear from ministers of education 
constantly that they talk about our students, even though the 
scores are a little lower, that our children are the most 
innovative, and how do we teach everything that we want to do 
in a 7-hour day? That is where I guess I am going.
    I certainly applaud Colorado for doing what you are doing, 
but with that being said, I think we have a lot on our plate. I 
agree that States have to be flexible.
    The other end, I hope we don't leave out those children 
with special needs and children with language difficulties. And 
I guess how are we going to be dealing with that into the 
future?
    Governor Ritter. Thank you.
    Let me just say a couple of things. The National Governors 
Association Chair chooses a theme, and 2 years ago, maybe 3, 
the theme was innovation. How do we in America remain the 
innovators? That is what distinguishes us from other places 
around the globe and can help us compete. If you talk about 
innovation, the conversation gets back to the education system. 
It just did. Every conversation we had, everybody who appeared, 
the private sector CEOs came in, and at the end of the day they 
talked about how important it was for us to maintain an 
education system that inspired innovation.
    Our thinking in Colorado is not that much different from 
other States in the country, which is that it is not just one 
thing. Content standards are a helpful way to think about 
changing from stem to stern the tools that teachers might have, 
to say how do we ensure that the right fundamentals are in 
place?
    But for us in Colorado, at-risk kids who were on a waiting 
list to go into State preschool programs were not getting an 
opportunity. Once they turned 5, if they were on a waiting 
list, they didn't wait. They went into kindergarten without 
preschool. Quite frankly, we have had the State program long 
enough to know that we can more than double the graduation rate 
of at-risk kids if we put them into a quality preschool. That 
is like one thing that is going to have a payoff in 14 years, 
but not for 14 years when we begin to see those kids who are 
now 3 years old graduating from high school.
    Full-day kindergarten is also important in this mix. 
Looking at standards that were developed for 3- and 4-year-olds 
was part of our thinking. We also looked at middle schools 
where they have difficult issues, challenges of kids not being 
proficient in many respects, and trying to put additional 
counselors into those middle schools to help them with what is 
necessary to get them to a place where they are more successful 
in high school.
    And then we have done a variety of things as it relates to 
high school and aligned our standards with higher ed, and all 
of that is a quick summary of things we have been working on, 
because we really do believe there is not just one thing. I 
think as a country we have to view it that way.
    I would say as it relates to special needs kids, I think in 
this country we think the right way about special needs kids. I 
believe the right amount of dollars are being invested. There 
could probably be some more things that would be helpful, but 
there is some flexibility with respect to what school districts 
can do with the money that flows to them for special needs. But 
my sense is that we try very hard to accommodate special needs 
kids in the public school districts of America and do a pretty 
good job.
    We have been working on this for three legislative 
sessions, and it is clear to me how many different things you 
need to bring together in order at the end of the day to make 
it about student learning.
    Teacher effectiveness, you mentioned that as well, and we 
are working with our schools that educate teachers who are 
going into the public school system. We are working with higher 
ed to ensure that we have the right way of instructing them and 
then asking questions: How do we retain the good ones and 
ensure they are quality teachers? Those are all part of a 
fairly, I think, difficult conversation sometimes, but a fairly 
important conversation if you are going to really get at 
student learning.
    Chairman Miller. Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    Governor, you have obviously talked at length about the 
common core standards, and I think there are 48 States involved 
in this, including my State of Delaware. If they are adopted in 
some way or another, that could be good. But I am a little 
concerned about the assessments. You mentioned the assessments, 
but you didn't go into any details on it. Would there be common 
assessments that would be developed at the same time, or would 
each State be allowed to have its own assessments? How is that 
being looked at by the NGA and chief State school officers, et 
cetera?
    Governor Ritter. Going back to our experience as a State 
where we developed common standards and believed it was 
important to retool the assessments so that they measured how 
you were doing against those standards, and we are in the 
process of doing that right now, but I believe it would be 
important to retool the assessments for those States that want 
to participate and adopt common core standards. They are going 
to have to do that.
    Mr. Castle. Do you think they would be common so everybody 
would have more or less the same assessments?
    Governor Ritter. I think so. I shouldn't speak for the 
National Governors Association because I haven't been a part of 
that conversation with the National Governors Association; but 
my sense is, yes, it should happen. This is not--and I don't 
want to make it sound like it is--easy, but at the same time, 
like I said, when we developed our standards, and we saw the 
first draft coming out of the National Governors Association 
and the CCSSO, those standards very much looked like what we 
had already put in place. And I suspect that is true of 
assessments as well.
    There is a lot that we do in this country that involves 
common assessments. It is not a foreign concept. If you think 
about the ACT or the SAT or things of that nature, it is just 
that we haven't done it in a fashion that, number one, uses the 
technology that is now available to us, or that allows us to do 
it on an ongoing basis. But absolutely I think we have the 
ability to develop common assessments that States can adopt or 
not adopt that help them measure against the progress of the 
standards.
    Mr. Castle. I am concerned about how the States will react 
if there are common standards as well as the assessments, and 
all of a sudden you are in a State that may be ranked 45th, as 
opposed to fifth, and you may say, I don't want any part of 
this. The concept, to me, makes a lot of sense. It is like the 
NAEP tests make a lot of sense to a degree, but Governors are 
very wary of that as well.
    It concerns me that you are going to have trouble getting 
all the States to cooperate and agree on this. If you start 
having something where people can look at it and rank it, which 
in many ways I think it would be good because it forces the 
States that are not doing well to do more, but I am not sure 
how happy the Governors and legislators are going to be in 
those States.
    Governor Ritter. I think we all agree the education system 
has to improve. The public education system in America has to 
improve. We have to graduate more kids than we currently do. 
Those kids should need less remediation to go to college than 
they currently do. We need to do a better job benchmarking 
internationally. If that is your aspiration, we need to be 
willing to submit to the hard realities that some States are 
going to do better than others, and then put in front of them 
some aspiration how to get to a better place. I think this 
notion of allowing States to benchmark among themselves is also 
very valuable because you can group yourself with other States. 
Again, you want it to be a competition that is about being 
rigorous and about inspiring schools to do better.
    My dealings with educators, not just in my own family, Mr. 
Polis mentioned that I was married to a schoolteacher, but my 
dealing with educators is largely that they want to do better 
and figure this out. I think the same is true of Governors and 
legislators.
    Mr. Castle. I tend to agree, and I think your answer is 
very properly idealistic. But if you are a Governor who is 
going to come in with low rankings and wants to get reelected, 
watch out trying to get them signed up and be involved with 
this. I think political concerns can get in the way of it all. 
I hope it doesn't, but that is a part that concerns me a great 
deal.
    My other concern is what, if anything, do you think 
Congress should be doing to react to this? I have been 
following this and following what Governors have been saying, 
et cetera. Right now you developed the standards and 
assessments anyhow. Whatever we do with No Child Left Behind, 
which will involve some fundamental changes next year probably, 
do we just leave it up to the States as we do now to develop 
the standards and assessments, and within that context you can 
do what you have to do to follow the course that you are 
following at this time?
    Governor Ritter. I just took a swing through the eastern 
part of my State. It is very rural. We had discussion with 
educators about some of the difficulties they continue to have 
with No Child Left Behind. Part of it was the punitive nature 
of that. Some of the goals that were set are going to be hard, 
if not impossible, to achieve, and they look at being punished 
by that if nothing were to change.
    And so in discussing this very thing, the Governors and 
with my own policy people, what can Congress do and what can 
the Federal Government do to assist us, I think the Federal 
Government has a role in helping us continue to set goals. We 
need to do a better job. We have to look at our graduation rate 
and say that is not acceptable in a 21st century world to have 
25 percent of the kids drop out of high school. What is the 
goal going to be?
    I think the Department of Education is doing a very good 
job of setting goals of the number of kids that must graduate 
from college, and backing that up saying, if that is the case, 
how do you get those kids into a 4-year program? What does that 
mean for graduation rates? And in order to change the 
graduation rate by 2020, what are the things that you have to 
do today? That is the most helpful thing.
    I think the punitive aspects of No Child Left Behind have 
actually received a greater focus from school districts than if 
we had said, this is the goal, how do we organize around this 
value or goal, and then look at best practices that we at the 
National Governors Association are pretty proud of and say, 
what kinds of best practices then help us move toward that 
goal?
    I know that sounds pretty idealistic, but we are doing this 
in a concrete way in Colorado where it is very much goal-
oriented. We set an ambition for ourselves to cut the dropout 
rate in half in 10 years from 2 years ago, and that gives us an 
organizing goal, an organizing value, and that makes a 
difference to educators when you articulate that.
    Chairman Miller. Mr. Polis.
    Mr. Polis. Thank you, very much.
    First, I would like to congratulate you, Governor Ritter, 
for being selected as Chair of the NGA's education committee 
this past July. Your appointment recognizes Colorado's major 
education reforms that you and Lieutenant Governor O'Brien have 
initiated since taking office in 2007. In this position with 
the NGA, you can help shape the national dialogue over 
education reform that President Obama and this Congress have 
launched with a bold vision and a strong commitment to 
excellence and opportunity for all.
    I want to thank you for providing this update on the State-
led development on common core State standards, which is an 
essential component in our Nation's effort to transform our 
education system so it provides all students with the skills 
and knowledge needed to successfully compete and thrive in the 
global economy.
    As Governor you spend a lot of time working to bring new 
businesses to Colorado and helping existing companies grow, 
something that is high on the agenda of all of our Governors, 
particularly as our Nation faces a recession. Promoting green 
energy jobs and strengthening Colorado's competitiveness both 
in the U.S. And internationally has been a major focus of your 
administration. Can you please discuss with us the importance 
of a high-quality education system and a highly skilled 
workforce in your economic development efforts and 
conversations with domestic and global businesses? How do you 
think the common core standards initiative will help improve 
our innovation and economic growth both as a Nation and for the 
States who adopt internationally benchmarked standards?
    Governor Ritter. Thank you, Mr. Polis.
    Mr. Chairman, I don't know that I have ever had an economic 
development conversation with a company that didn't ask 
questions about our education system, or before they spoke to 
me at least there were other conversations about that. 
Certainly partly people care about how their own kids will be 
educated. If they move into a State or will be moving employees 
in, they want to market that State based upon the education 
system. But they also care about the readiness of the 
workforce.
    I think there are a lot of businesses in America, small 
businesses, moderate or middle-sized and big businesses, that 
are concerned about workforce readiness and the level of 
training that is needed once they hire people, because the 
education system in some respects has not provided the levels 
of education necessary. Again, remediation is what we call it 
when a person enters into higher ed and needs to go back and do 
things over that they should have learned in high school, but 
that is also a concern on the part of employers. So we are very 
proud. We have the second highest concentration of higher ed 
degrees of any State in America in Colorado. That is something 
that is very impressive to employers.
    We have been focusing on what we call 21st century 
industries with sustainable jobs: clean energy, aerospace, bio 
science, life science, and then information communication 
technology. Those are industries that are part of our focus. 
Those are all fairly intense industries that require--for our 
part require a workforce that has something beyond just a high 
school diploma, and even in the skilled workforce, some kind of 
additional training.
    We have partnered with community colleges to find ways to 
ensure that they are participating in our training of these, of 
this part of the workforce. We brought in Danish companies. We 
had recently a German manufacturer of solar inverters who 
decided to come to Colorado. It is the first place in the world 
that they are going to make solar inverters outside of Germany, 
and it has everything to do with a variety of factors, not the 
least of which is our education system.
    Mr. Polis. I am glad to hear that our efforts in education 
reform are leading to tangible improvements and jobs in 
Colorado and the economy, and are a major selling point that 
you as Governor and other promoters of Colorado use in bringing 
businesses to Colorado.
    In your testimony you mentioned that your experience 
upgrading Colorado State standards was critical. I want you to 
describe some of the key efforts in Colorado to increase rigor 
in our schools and also to better align K-12 and postsecondary 
education. Specifically, I would like you to discuss how the 
work of your P-20 Education Coordinating Council that you 
established helped pave the way for Colorado to become one of 
the first States in the Nation to align its academic policies 
from preschool all the way through higher education.
    Governor Ritter. Our starting point was the appointment of 
this P-20 Council. And with all due respect to educators, we 
thought it was important to have subject matter experts help us 
develop policy. We thought it was important to sort of remove 
ideology from the debate and form a bipartisan group of people 
who would really work in the world of preschool through 
postgraduate work. That is the 20 in P-20; 4 years after you 
have completed a college degree, if you are still in some kind 
of an advanced degree program, we really think about how to 
align standards.
    We had the first meeting in the history of the State of 
Colorado between our Commission on Higher Education and the 
State board of education to adopt these standards. We had never 
met before to really ask the question: How do we align 
standards? So we said it wasn't just what you got K through 12, 
but ensured that there was participation by the higher 
education system to say, you want to manage your curriculum in 
your first year of college, this is what is necessary when you 
graduate.
    Thirty percent of our kids graduating from Colorado high 
schools needed remedial help; whether it was a junior college, 
a community college or a 4-year college, 30 percent of those 
kids needed remedial help. So for our purposes, we aligned 
based upon the recommendations of the P-20 Council about really 
how to do that.
    Mr. Polis. Thank you.
    I yield back the balance of my time.
    Chairman Miller. Just for the information of the Members, 
Mr. Guthrie and then Ms. Chu will ask questions of the 
Governor, and then the Governor will have to leave. We are 
expecting a vote relatively shortly, but we will try to get the 
second panel in place, and we will begin the questioning with 
those who haven't had an opportunity to question in this round.
    Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman. I will just ask one 
quick questions.
    Thank you for coming. I was in the State legislature, and 
it is where the rubber meets the road in education. There were 
a couple of minutes in the introduction about setting 
performance-based goals measured against global benchmarks. 
What kinds of global benchmarks and what kind of process are 
you setting? Have you already started working on those 
benchmarks? And just the process, just elaborate. That is all I 
will be asking.
    Governor Ritter. I think the Chairman alluded to the fact 
that we know where we stand in terms of proficiency as it 
relates to other States and other countries and how those 
students performed in math and science and different language 
abilities. We can then look at ourselves and benchmark it 
against other countries and ask the question, how do we do a 
better job? How do we get more kids who are proficient in math 
or who perform at the highest levels in math? That is the kind 
of benchmarking that we are talking about. That data is there. 
The data is available. We already in some respects are able to 
benchmark against that, and so then the question is how do we 
measure progress as we use those standards?
    Mr. Guthrie. Thank you. I yield back.
    Chairman Miller. Ms. Chu.
    Ms. Chu. Governor Ritter, your testimony mentions how the 
Obama administration is providing carrots, not sticks, to 
encourage States to toughen academic standards. However, 
California standards are already rigorous. If California were 
to adopt the proposed standards, there is the possibility that 
students wouldn't be able to meet the requirements for 
admission to California State University and the University of 
California. I know that you said you would want to have the 
highest standards, as I learned from your earlier discourse, 
but how would your initiative address States with higher 
standards?
    Governor Ritter. Again, the Department of Education has to 
decide what it ultimately wants to do with these common core 
standards. For us it has been a State-led process that has 
involved 48 out of the 50 States, including California, in the 
writing of those. We demanded rigor. They are not fully 
completed yet, so I am not sure how States can come in and say 
that our standards are higher than these standards, but at the 
end of the day, they can adopt them or decide not to adopt 
them. What we are trying to do is set a high bar, and we 
believe that that has been part of our process is finding a way 
to set a pretty high bar, rigorous bar, that pulls States up.
    So not being familiar with the California standards or able 
to say--I guess not being able to accept the premise is what I 
am saying, we have tried to make it so these standards are such 
that States don't fall above them, that they actually are a 
good measure of where States should find themselves when they 
are considering it. And at the end of the day, it is absolutely 
voluntary on the part of the States to see if they want to do 
that or not.
    Even in my discussions with the Secretary, they are not 
demanding 100 percent compliance with these standards. They are 
asking that there be some kind of substantial compliance if you 
are going to get Race to the Top money. But Race to the Top, 
while it is important, it is one thing. If States have done a 
better job of adopting standards than what we are doing at the 
National Governors Association, I say that is a really good 
problem to have.
    Ms. Chu. It sounds to me like you have taken a substantial 
role in upgrading standards in Colorado. What was the greatest 
challenge in doing so?
    Governor Ritter. In Colorado, it is very much a local 
system. It is based upon local school districts. In a 
population of 5 million people, we have 175 or 178 school 
districts, and ensuring that you take into consideration the 
special needs of those school districts. There are very 
different characteristics in those, and to adopt a common set 
of content standards that really can be something implemented 
in each of those districts is going to require a great deal of 
work, and that it why I said it takes some time to do that. 
That has been our greatest challenge is to ensure that it is 
something that works for all 178 school districts.
    Chairman Miller. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Governor, following up on Mr. Polis' question, can you say 
a quick word about how competitive the United States can be 
internationally in business if we continue to languish at the 
bottom in math and science and education?
    Governor Ritter. I think the Lumina Foundation maybe has 
done the best work on this. The Lumina Foundation looked at 
where we were when my generation--and I am 53 years old--my 
generation sort of came out of college, and 37 percent of us 
had higher ed degrees. My son's generation, he is 23 years old. 
Those 25 to 34 years old, 25 percent of them have a college 
degree. We have actually lost ground. We are the first 
generation to have another generation beyond us lose ground in 
concentration of higher ed degrees.
    Meanwhile, Japan is over 50 percent. South Korea is over 50 
percent. Most Scandinavian countries are at where we are or 
have exceeded where we are. So we can't continue to lose ground 
against other countries in terms of how well educated our 
population is without also losing a competitive edge. I think 
that is a way to think about this. It is absolutely important 
for us to focus on what the end game is, and the end game is 
that other places in this world, there are more students 
receiving college degrees than when my generation came out of 
college. And in order for us to really maintain our competitive 
edge, we have to solve that issue. We don't solve that issue 
without solving the issue of what is happening in K-12 with 
respect to our dropout rate, but maybe more importantly with 
respect to how we are working with the fundamentals and our 
inability to really compete because of our math and English 
grades.
    Mr. Scott. And because when the corporations make their 
decisions, they look at that, and if we don't show good 
numbers, they are going somewhere else.
    Governor Ritter. Absolutely. They very much care about 
that.
    Mr. Scott. You mentioned the study of the waiting list on 
preschool and the effect on graduation rates. Did that study 
also show the cost-effectiveness of preschool compared to the 
cost of remedial education on crime and welfare?
    Governor Ritter. What it showed--it was a children's 
campaign study, and they may have based the information on 
something else, but it was in a publication that was called The 
Colorado Children's Campaign, and it showed the lost earned 
income for dropouts, for school dropouts. Again, I can't quote 
the figure off the top of my head, but it looked at this and 
said if a student drops out, compared to a student who 
graduates, this is the income you lose. That is what the earner 
loses, but then the State revenue that is piled on top of that 
because of an inability to tax that lower income; and then the 
necessity for really a variety of services that the State 
expends, whether social services or even criminal justice 
services, because a person is a dropout and therefore is at 
greater risk of having those intersections with the State 
government.
    Mr. Scott. It did include the future costs of crime, 
welfare, and remedial education?
    Governor Ritter. It did, I believe.
    Mr. Scott. If we can get a copy of that, I would appreciate 
that.
    Governor Ritter. Okay.
    Mr. Scott. There seems to be some religion. Sometimes I 
think I am the only one on this panel who really thinks there 
really ought to be a national standard. What is the advantage 
of having each State home-bake its own standards and 
assessments rather than there be a--since we are competing 
internationally, why can't we have--or what is the advantage of 
having the 50 States do their own rather than a bare core 
national standard that, if a State wants to, it can exceed, but 
it needs to come up with at least the basic standard?
    Governor Ritter. I don't think there is an advantage. That 
is why we are involved in this process of having 48 States pull 
together to develop a common core standard, because we think an 
approach that allows 50 different States to have 50 different 
standards and 50 different assessments will not get us to the 
place we need to get to to compete internationally.
    So for our purposes, a common core standard is what should 
be, at the end of the day, drawn up, and then allow States to 
decide whether to participate or not.
    Mr. Scott. Does the common core include things other than 
the math and science and English? How about conflict 
resolution, physical ed and general culture kind of things?
    Governor Ritter. At this juncture it really does not. We 
started with math and English language arts. That is the 
starting point. I guess what else is amenable to the 
development of a common core standard is an open question, but 
we appreciate this is the starting point, these two 
disciplines.
    Chairman Miller. Thank you, Governor. Thank you very much 
for your time and your expertise on this. We look forward to 
the results. We wish you and the other Governors all the best.
    Governor Ritter. Thank you to the members of the committee 
and to you, Mr. Chairman, for the time and opportunity.
    Chairman Miller. Great. Thank you.
    Chairman Miller. Our next panel, if they would come and 
take their seats, we will begin with Gene Wilhoit, who became 
executive director of the Council of Chief State School 
Officers in November, 2006. He has served as a program director 
for the Indiana Department of Education; administrator in 
Kanawha County, West Virginia; and special assistant to the 
U.S. Department of Education. Mr. Wilhoit has also served as 
executive director of the National Association of School Boards 
of Education, and director of the Arkansas Department of 
Education, and deputy commissioner and commissioner of the 
Kentucky Department of Education.
    Doug Kubach is the president and CEO of Pearson Assessment 
and Information. Mr. Kubach joined Pearson Assessment and 
Information in May 2001 as senior vice president for strategy 
and chief technology officer for Pearson Education. In 2003, he 
was appointed president and CEO of Pearson's assessment and 
testing business, which has become the leading assessment and 
information system provider in the U.S. education market. 
Formerly Mr. Kubach was the chief technology officer for 
McGraw-Hill Education, senior executive of Harcourt school 
division.
    Cathy Allen is from St. Mary's County Board of Education in 
Maryland. Cathy Allen has been on the board of education for 
St. Mary's County Public School for 9 years, having served both 
as vice chair and chairman of the board. She is the current 
president-elect of the Maryland Association of Boards of 
Education and has served on numerous committees on that board.
    We welcome you today to the committee. We look forward to 
your testimony. Unfortunately, at some point we will be 
interrupted by a vote, but hopefully we will quickly discharge 
our duties and return here.
    Again, the lighting system is the green lights come on, and 
you have 5 minutes. An orange light comes on, and you have a 
minute to wrap up, and then we will go to questions after all 
of you have testified. Thank you so much for taking your time.
    Mr. Wilhoit, you may begin.

STATEMENT OF GENE WILHOIT, EXECUTIVE DIRECTOR, COUNCIL OF CHIEF 
                      STATE SCHOOL OFFICES

    Mr. Wilhoit. Thank you, Chairman Miller, Ranking Member 
Thompson, and members of the committee, it is a pleasure to be 
with you today. All of us know that there have been efforts in 
the past to come to commonality around standards, and those 
have not been successful. So why should this one be more 
successful than the past, I think, is an important question. I 
would say this is fundamentally different in ways that will 
assure success.
    First of all, as the Governor has indicated, this remains a 
State-Led effort. And as a former chief in two States, it is 
important in our conversations among the chiefs that it remain 
so.
    Secondly, we have said to the States from the very 
beginning this is voluntary; and if a State does not want to 
comply, they may choose not to do so. But we are pleased that 
48 States and two territories are currently engaged in the 
process.
    Third, we are aiming higher with these standards than we 
have attempted in the past. And by that, we are again 
attempting to make these standards higher because we know that 
there is tremendous disparity among the States in terms of 
expectations. Secondly, we are trying to make them clear so 
that a teacher in the classroom and an administrator in a 
building will be able to read those standards and understand 
them. And we are also attempting to make them more direct and 
fewer, because what we have done in many States, as you read 
those standards, is expand the expectations.
    And well-meaning and hard-working teachers are attempting 
to teach to all those standards, and in doing so we are losing 
the deepness of understanding that students have in covering 
all of that.
    So these are higher, clearer, fewer standards than we have 
before. And as the governor said, we are internationally 
benchmarking these against the other countries. We are not only 
including content here, we are talking about the cognitive 
capacities that these students are going to need to be 
successful in this new world economy.
    And, finally, we are building on the idea that we will try 
to put as much evidence on the table as possible in terms of 
coming up with these standards. I will say, frankly, that there 
is not enough evidence out there as we go through this process 
in 2009, but we have changed the way in which we are setting 
standards, trying to make sure that we make a direct link 
between the experiences students have at K-12 and the ultimate 
success they have in careers and in colleges.
    So this is different. This will assure success, we think, 
in the future. It is an intensive process. We have been open 
and transparent. We have had all educational organizations who 
are interested give us direct comments. We have had members of 
the unions, we have had the administrators, the local boards 
all engaged in conversations with us. We have had the civil 
rights community providing advice. We have had university 
professors who are well known and respected in the field to 
provide advice. That is highly complex and diverse and, 
frankly, very dynamic in terms of the work that we are engaged 
in. But we do feel that out of that process, in addition to 
having over a thousand individual comments come in to us about 
the nature of these standards, we are coming up with the best 
effort we have had as a country. So we feel good about that. 
And what we are now attempting to do is move this to a point 
where this State-led effort will lead to a process of adoption 
by the States.
    We have a two-part document that has been created. The 
first part is a statement about what we call readiness 
standards for college in mathematics and English language arts. 
What are the expectations for a student to know and be able to 
do to enter a credit-bearing course, not remediation, in 
college and be successful in that course? And that is a 
question we have asked higher ed to answer for us. It is a 
question we brought to organizations who have expertise and 
knowledge about it, like the ACT and the college board, other 
organizations like ACHIEVE through the American Diploma 
Project. We have reached out to others to answer that question. 
We have had a validation committee of national individuals, 
respected individuals who are answering that question.
    And then we are asking those individuals to give us a sense 
of what those readiness standards would look like if we began 
to articulate those into learning progressions through the K-12 
experience. If we know what and can agree upon what those 
readiness standards are, what would it look like at a third-
grade level for a teacher to look at those standards and be 
clear about what is expected and what happened at the second 
and the first grade prior to that, and then what would be 
expected of that student as that student moves through the 
learning process. So it is a two-part document, the readiness 
standards being very open and transparent about what we expect 
for success, and then an articulation of those standards 
through the learning experience.
    We have, at this point, produced those learning readiness 
standards. We put them out for public comment. We have received 
advice. We are now in the process of finalizing and revising 
those statements. We have put in the hands of the States those 
K-12 learning progressions. They are now providing us feedback. 
Friday was the deadline for the States to do so. They have done 
that, and we are weeding through the numerous and very 
thoughtful presentations that are being made by the States. 
Every State has been given an invitation to provide that sort 
of feedback, and we are asking other individuals to do the 
same.
    We have a validation committee that will be reviewing all 
of this, and our goal is still by the end of January to have a 
document that can be shared with the country in terms of our 
expectations. So it is moving forward according to schedule.
    We see direct benefits for this at every level for the 
students and the system who are now very mobile, not only 
within States, but across the country, in being able to set 
some expectations that they can follow as they move throughout 
their career. It should not matter where a student goes to 
school. Those same expectations should be held for every one of 
them.
    For the parents, there is a hopefully a set of statements 
which are much clearer than what we have had in the past. You 
can actually read those and interpret them and understand them 
and understand the role that you, as a parent or guardian, play 
in that educational process.
    For teachers, this will be the first time we have put in 
front of them a set of very clear statements about their roles 
and responsibilities, and broken this down in a way that an 
individual teacher would be able to understand and know what 
contribution that teacher can make to the process.
    And for universities, this is a statement about readiness. 
It is a commitment on the part of K-12 to send prepared 
students into the higher education system, but also to say to 
the higher ed community: We have a lot of work ahead of us to 
align what you are doing at the university system with K-12 
experience.
    That leads us to, I think, this final issue I would like to 
talk about, and that is the Federal role. We do believe this 
has its strength because it is a State-led initiative. We want 
it to remain a State-led initiative, but we do feel that there 
is a Federal role in supporting this kind of work. And I think 
that comes, first of all, in the area of research. We need more 
practical research on what is going on in classrooms around the 
implementation of these standards, because we know this is only 
a first step.
    When we get standards in front of individuals, we then need 
to develop assessment systems, program supports, and support 
for our teachers, and we need support in multiple ways. The 
Federal Government can support that kind of.
    Chairman Miller. If you can wrap up.
    Mr. Wilhoit. That is it.
    Chairman Miller. Thank you.
    [The statement of Mr. Wilhoit follows:]

  Prepared Statement of Gene Wilhoit, Executive Director, Council of 
                  Chief State School Officers (CCSSO)

    Chairman Miller, Ranking Member Kline, members of the committee, 
thank you for inviting me to speak today about the state-led common 
core standards initiative directed by the Council of Chief State School 
Officers (CCSSO) and the National Governors Association (NGA).
    We know that efforts to produce common education standards have 
been tried and have failed many times before. However, this current 
effort is fundamentally different as standards are in place in all 
states, states are frustrated by the inability to make fair and 
accurate comparisons and they see the benefits that can come from 
collective state action and have determined to drive this initiative 
themselves. Currently, forty-eight states, two territories, and the 
District of Columbia are voluntarily engaged in this initiative and 
this is why our collective state work is going to succeed. Further, 
while developing these core standards in English language arts and 
mathematics, our goal was not just that they be common across states, 
but that they reflect certain principles: be higher, clearer, and 
fewer; be internationally benchmarked; include both content knowledge 
and skills; be evidence and research based; and prepare students for 
college and career. This initiative is, and has been since its 
inception, a state-led, voluntary effort and by following these 
principles we are developing better, higher standards that will support 
all students, parents, and educators.
    Over the past three years, the members of CCSSO who lead state 
education agencies have been taking strong, innovative steps to reform 
and improve our nation's system of education. When I became executive 
director of CCSSO over three years ago, the leadership and I embraced a 
policy agenda based on our states no longer tolerating incremental 
reform but taking the lead in making bold changes. I believe this 
effort being voluntarily led by the states on behalf of all of the 
nation's children does just that.
    In 2007, international comparisons through the Programme for 
International Student Assessment (PISA) indicated that American 
children were ranked well below their peers in leading education 
countries like Finland, Singapore, Korea, Australia, and Canada. CCSSO, 
along with NGA, vowed to change these looming statistics. In December 
of last year, after much research and discussion with our members, we 
released a report with Achieve Inc. on international benchmarking and 
made our first priority the creation of better, higher core standards 
that are common across states like those high performing countries. 
Many of our members had already begun efforts along this line with the 
American Diploma Project and were seeing commonalities emerge. This 
current state-led effort builds on that and expands it to ensure that 
all children regardless of zip code are taught to the same high 
standards that prepare them for college and career and allow them to 
compete with their peers around the globe.
    States have told CCSSO what they need, and we have developed a 
process that will best support their needs, and ultimately the needs of 
all students across this nation. Our process is thorough and 
transparent; we have engaged a tremendous number of stakeholders and 
interested parties: individual teachers, national organizations, 
teachers' unions, as well as members of the general public. I am here 
today to give you complete confidence that states are taking the lead 
to develop the best standards our country and our states have ever 
seen. We are committed to the highest quality and our process will 
result in standards worthy of all of your states' students.
The Common Core State Standards Initiative Explained
    I will highlight three important points as I talk about this 
initiative. First, by keeping this a collective and state-led 
initiative, we are able to ensure that high standards are applied to 
each and every student and that will form the basis for many other 
educational reforms. Second, we are adhering to four foundational 
principles and a transparent process to develop these standards. 
Finally, we believe that there are clear benefits of shared standards 
to all students, parents, and teachers.
I. Collective State-Led Education Reform
    Throughout this work, we remain cognizant that the states have the 
primary responsibility to provide an equitable and adequate education 
for every child in this country through our 57 public education systems 
(including the states, the District of Columbia, the Department of 
Defense Education Activity, and all five extra-state jurisdictions), 
and it is each state's right to determine and define what each student, 
in each grade level, should know and be able to do. This means that 
each state defines what its standards are, how those standards will be 
taught by teachers, and how student learning will be assessed. Through 
collective state action, we will produce a high-quality set of learning 
outcomes that the states agree will ultimately produce strong student 
outcomes while still allowing flexibility for local districts to 
innovate to get all students to these goals, including English language 
learners and students with disabilities. We do not believe we would be 
able to serve all students if this was not a collaborative, state-led 
process. The establishment of common core standards is a first step 
toward bringing about real and meaningful transformation of our 
education system and toward the ultimate goal of preparing all children 
for college, work, and success in the global economy. We are very proud 
that 48 states, two territories, and the District of Columbia have 
signed onto the Common Core State Standards Initiative.
    We also realize that better, common core standards are only the 
first step in a longer reform process. However, the standards lay the 
groundwork for states to continue collective education reform. Even 
those states that are thought to already have high standards are able 
to benefit from this work in a variety of ways. With the common core 
standards adopted, states may take on the process of developing shared 
assessments, which, among other benefits, would potentially lead to 
tremendous cost savings at the state level. The standards also allow 
states to be aligned in how they prepare teachers and how they advance 
the teaching profession. Further, teachers can have the instructional 
supports and materials that are aligned to these core standards in 
order to be effective in teaching them. We are working with several 
organizations to make sure that these materials will be produced in an 
effective and open way to allow access to all teachers and schools. 
With common core standards, states can continue their collective reform 
efforts in nearly all facets of the education system.
II. Common Core Standards Development Principles and Transparency
    As mentioned earlier, even before development of the standards 
began, this initiative has been driven by the following four 
fundamental principles to ensure better, common state standards that 
all students should meet to be college and career ready.
    Our first principle involves the design of these common standards 
to be higher, clearer and fewer. Each one of these design elements is 
crucial. Higher standards raise the bar to prepare students for 
international competitiveness. Being committed to higher standards 
ensures that no state involved in this process will have to lower its 
standards by adopting the common core. Clearer standards allow parents, 
students, and teachers to understand exactly what is expected of 
students as they advance through the system. Fewer standards allow 
teachers in the classroom to focus on topics in a much deeper way. One 
challenge that we consistently hear from educators about current 
standards is that there are too many to cover in the school year. We 
are focusing the standards in order to maximize student learning.
    The second principle is that these standards will be 
internationally benchmarked. American students are entering a global 
economy that requires them to compete with students from across the 
world. Through our development of the common standards, we have looked 
at other high achieving countries' standards to ensure that we are 
using the best standards in the world. By doing this, we are creating a 
set of standards that will allow our students to be internationally 
competitive when they leave our public schools.
    The third principle is that our standards development process is 
being driven by evidence and research. In the past, standards were 
based largely on personal judgment. By allowing personal judgment to 
determine what concepts are in or out of standards, the process often 
becomes a negotiation, rather than a reflection on what the evidence 
and research tells us about the connection between K-12 experiences and 
success in higher education and promising careers.
    The final principle is to align the common standards with college 
and work expectations. By preparing all students to be both college and 
career ready, all students are able to be competitive in their post-
secondary education and/or career choice. Focusing on all students 
being prepared for college and career is absolutely critical to the 
long-term success of our country. Having a set of expectations that are 
clear to students, parents and educators about what it takes to be 
college and career ready, the states have taken a major step forward in 
producing students who are ready for the world.
    Now that I have described the principles that guide our state-led 
work, I want to speak a bit about the process. CCSSO and NGA committed 
to their respective memberships that we would honor and keep this 
process as transparent and open as possible. In April 2009, over forty 
states met to discuss the possibility of creating common core standards 
in English language arts and mathematics grounded in these principles. 
By the end of the conversation, 48 states signed on to be a part of the 
standards development work. Since then, a tight timeline for the 
standards development process has been fully underway. The first step 
in our process was to develop college and career readiness standards in 
the fall of 2009, and then, back-map those standards through K-12, 
grade-by-grade in early 2010. Using experts and practitioners from 
across the nation and throughout the world, we have remained true to 
our original timeline. We have developed the initial version of the 
college and career readiness standards, which was released in September 
of this year. These standards have already been reviewed by states, the 
public, and a range of national organizations and experts. Based upon 
the college and career readiness standards, we have begun the 
development of the K-12 standards which are currently being reviewed by 
states and others. The development of the K-12 expectations will be 
complete in early February 2010 once the states and the public have had 
a chance to weigh in.
    Once developed, states will begin the process of adopting and 
implementing the standards. We have defined adoption of the common core 
standards as the following: a state must adopt one hundred percent of 
the common core standards; in addition to one hundred percent of the 
common core, states are able to add up to an additional fifteen percent 
at their discretion; and, the standards authorizing body within the 
state must take formal action to adopt and implement the common core. 
Ultimately, states are responsible for demonstrating that they have 
adhered to this definition of adoption and states are expected to 
within three years fully implement the standards by developing 
instructional supports and aligning assessments.
III. Benefits of Common Standards: Students, Parents, and Teachers
    Not only are the common standards a positive development for all 
students because they help prepare them with the knowledge and skills 
needed to succeed in college and careers, but, common standards for all 
students provides consistency in high expectations for learning across 
the nation, regardless of in which state the student lives. Having 
common standards is a critical issue for many students who may have 
different expectations depending on where they live and which school 
they attend. These standards will allow students to more easily 
transition from one state to another without losing valuable learning 
time adjusting to different standards. Given the mobility of the 
student population in the United States, common standards is essential. 
Also, having higher, clearer, and fewer standards makes it very 
apparent to students what we expect of them so that they can take part 
in being accountable for their own learning.
    For parents, common standards are a positive development because 
they help them understand exactly what their children need to know and 
be able to do at each step in their education. With clearer and fewer 
standards, parents will be better positioned to facilitate 
conversations with their child's teachers about what they should be 
learning and how they can reach their goals creating even more 
accountability in system.
    Finally, common standards are critical for teachers as it makes it 
clear what is expected of their students from year to year. It also 
allows for more focused educator training and professional development. 
Strong training of our teachers is paramount, and common standards 
allow for teacher preparation programs and ongoing professional 
development to be focused on these key objectives.
The Federal Role
    To preserve the integrity of this work, it is imperative that this 
remains as a state-led initiative. However, even while remaining state-
led, there are avenues in which the federal government can offer 
support and ongoing research. Federal law needs to reward this kind of 
state leadership, not just with funding for assessments, professional 
development, and other supports, but also by codifying a new form of 
state-federal partnership that promotes innovation and values state 
judgment on accountability, particularly in terms of the 
reauthorization of the Elementary and Secondary Education Act. The 
current accountability system established under the No Child Left 
Behind Act will undercut movement toward high standards. By adopting 
the common core standards, states are voluntarily raising the bar for 
all students and should be allowed flexibility as they implement them.
Conclusion
    As stated previously, there have been previous failed attempts to 
create a set of common expectations for students in the United States; 
however, this time states are at the forefront, leading this successful 
work. Given that international assessments are demonstrating that the 
United States is falling behind in key measures, the states are 
collectively and aggressively acting to create better, common core 
standards which will set the high bar for continuing the hard work of 
taking all students to college and career ready levels. This is 
challenging work. We also recognize that having common standards is the 
necessary starting point, and that there is much work ahead. Now is the 
time to take action, and the states are responding with thoughtful 
commitment and collective leadership.
    I welcome any comments or questions regarding this state-led 
initiative, the principles we are adhering to, our transparent process, 
and how this effort will benefit each and every student, parent, and 
teacher in our educational system.
    Thank you again for the opportunity to testify before the Committee 
today. I submitted a more formal statement for the official record.
                                 ______
                                 
    Chairman Miller. Mr. Kubach.

    STATEMENT OF DOUGLAS KUBACH, PRESIDENT AND CEO, PEARSON 
                   ASSESSMENT AND INFORMATION

    Mr. Kubach. Thank you, Chairman Miller, Congressman 
Thompson, and all the members of the committee for the 
invitation to be here today.
    Pearson is the global leader in educational assessment and 
education technology, drawing on our expertise in large-scale 
assessments, longitudinal data systems, and instructional 
support systems, we are actively working to inform the public 
dialogue about high-quality standards and assessments. We share 
the administration's and the committee's goals of improving 
student learning, increasing college readiness, and our global 
competitiveness.
    In my testimony today, I will focus on three key points. 
The first point is that to successfully develop and implement 
higher quality standards, diverse education stakeholders will 
be required to collaborate and cooperate in new ways. For 
example, Pearson is collaborating with ETS and the College 
Board, two organizations with a shared longstanding commitment 
to investing in education research and development. Together, 
we are exploring how innovative approaches and best practices 
in high-quality assessments can contribute to a new common core 
standards assessment system. Our joint paper is being submitted 
for the record along with Pearson's full written response to 
the Education Department's recent request for input on the Race 
to the Top assessment program.
    The second point I would like to make is about the role of 
annual assessments as the foundation for a quality management 
system for public education. We are proud of the role that we 
play in helping 30 States implement valid, reliable, and 
efficient systems. We believe that transparency into student 
performance is essential to achieving lasting education reform. 
Nothing is more fundamental to ensuring transparency than 
accountability systems based upon annual assessments of 
individual student achievement and providing parents and the 
public with the results.
    It is only through annual assessments that we know what 
progress we are making in providing equal access to a quality 
public education for all children. It is the only way for 
parents and educators to know whether curriculum and 
instructional practices are working, what is effective, and 
what needs to improve. It is the only way for parents, 
policymakers, and administrators to know whether schools are 
effectively serving students, holding teachers and school 
leaders accountable for making progress, and improving student 
outcomes.
    Here, I would like to make a special point about assessment 
systems developed in connection with No Child Left Behind. Both 
the Federal Government and the States have invested significant 
amounts of time and money into these systems which rely 
primarily on paper-based, multiple choice assessments. With all 
of the resources provided through the American Recovery and 
Reinvestment Act and Race to the Top, we have a once-in-a-
lifetime opportunity to go paperless. And that is my final 
point this morning, the unprecedented opportunity we have 
before us to go online to improve learning.
    Now is the time for States to build out the infrastructure 
and capacity for online assessments, online management system, 
online content instructional delivery systems.
    Online assessments will allow us to do some truly 
revolutionary things. For example, we can use a wider range of 
performance-based tasks such as multi-step problems, 
simulations, and inquiry-based investigations. We can use new 
language evaluation technologies that automate the scoring of 
open-ended oral and written responses. We will have less 
cumbersome assessment progresses and faster delivery of 
results, allowing more real-time adjustments and instruction. 
We will get greater use out of our longitudinal data systems 
through improve data timeliness and data quality. And, we will 
be able to offer a wider range of accommodations for students 
with disabilities and for English language learners.
    Online assessments better reflect the world of college and 
work that students will live in. Also note that the emerging 
common course standards in both math and English language arts 
define constructs that can best be measured through the use of 
technology. New assessment innovations allow to go beyond 
traditional tests to measure complex tasks like problem 
solving, critical thinking, and analysis, or making inferences 
within and across core subjects. Advances in technology, 
coupled with advances in assessment design, make it possible 
for us to obtain a richer and more nuanced picture of what 
students know and can do than ever before.
    In closing, we are committed to developing assessment 
systems that provide accountability data and actionable 
information to students, parents, teachers, administrators, and 
policymakers. Improvements in innovations and assessment 
methods and technology, coupled with the development of higher 
standards focused on both content and skills, will allow us to 
better measure student performance and ultimately to improve 
student learning.
    Mr. Chairman, thank you again for the opportunity to 
participate in this conversation with you and your colleagues. 
I look forward to answering your questions.
    Chairman Miller. Thank you.
    [The statement of Mr. Kubach follows:]

 Prepared Statement of Douglas Kubach, Pearson Assessment & Information

    Thank you, Chairman Miller, Ranking Member Kline, and all the 
members of the committee for the invitation to be here today. I am 
Douglas Kubach, President & CEO for Pearson's Assessment & Information 
group.
    Pearson is the global leader in educational assessment and 
education technology.
    Drawing on our expertise implementing large-scale assessments, 
longitudinal data systems and instructional support systems, we are 
actively working to inform the public dialogue about higher quality 
standards and assessments. We share the Administration's and the 
Committee's goals of improving student learning, increasing college 
readiness and global competitiveness.
(1) Collaboration for the greater good
    In my testimony today I will focus on three key points. The first 
point is that to successfully develop and implement higher quality 
standards, diverse education stakeholders, such as state consortia, the 
US Department of Education, non-profit and for-profit entities, K-12 
and higher education leaders, and assessment developers, to name a few, 
will be required to collaborate and cooperate in new ways. For example, 
Pearson is collaborating with ETS and the College Board, two 
organizations with a shared, longstanding commitment to investing in 
education research and development. Together, we're exploring, not for 
individual gain, but for the benefit of our students and our nation, 
how innovative approaches and best practices in high-quality 
assessments can contribute to a new Common Core Standards assessment 
system. Our joint paper is being submitted for the record along with 
Pearson's full written response to the U.S. Education Department's 
recent request for input on the Race to the Top Assessment program.
(2) Preserving Accountability, Increasing Transparency
    The second point I'd like make is about the role of annual 
assessments as a foundation for a quality management system for public 
education. We are proud of the role that we play in helping 30 states 
implement valid, reliable and efficient assessment systems. We believe 
that transparency into student performance is essential to achieving 
lasting education reform.
    Nothing is more fundamental to ensuring transparency than 
accountability systems based upon annual assessments of individual 
student growth and achievement and providing parents and the public 
with the results.
    It is only through annual assessments that we know what progress we 
are making in providing equal access to a quality public education for 
all children. It's the only way for parents and educators to know 
whether curriculum and instructional practices are working, what's 
effective and what needs to improve. It's the only way for parents, 
policymakers and administrators to know whether schools are effectively 
serving students, holding teachers and school leaders accountable for 
making progress in improving student outcomes.
    Here I'd like to make a special point about assessment systems 
developed in connection with No Child Left Behind (NCLB). Both the 
federal government and the states have invested significant amounts of 
time and money in these systems, which rely primarily on paper-based, 
multiple-choice summative assessments. With all of the resources 
provided through the American Recovery and Reinvestment Act and Race to 
the Top we have a once-in-a-lifetime opportunity to go to paperless 
testing.
(3) Once-in-a-Lifetime Opportunity to ``Go Online''
    And that is my final point this morning: The unprecedented 
opportunity we have before us to ``go online'' to improve learning. Now 
is the time for states to build out the infrastructure and capacity for 
online assessments, online management systems, and online content and 
instructional delivery and reporting systems.
    Online assessments will allow us to do some truly revolutionary 
things. For example* Wider use of performance-based tasks such as 
multi-step problems, simulations, and inquiry-based investigations;
    <bullet> New language evaluation technologies that automate the 
scoring of open-ended oral and written responses;
    <bullet> Less cumbersome assessment processes and speedier delivery 
of results--allowing more real time adjustments in instruction;
    <bullet> Greater use of longitudinal data systems through improved 
data timeliness and quality;
    <bullet> Wider range of accommodations for students with 
disabilities and English-language learners.
    Online assessments better reflect the world of college and work 
that students will live in.
    Moreover, the emerging Common Core standards in both Mathematics 
and English Language Arts define constructs that can best be measured 
through the use of technology. New assessment innovations allow us to 
go beyond traditional tests to measure complex tasks like problem-
solving, critical thinking and analysis, or making inferences within 
and across core subjects. Advances in technology, coupled with advances 
in assessment design, psychometrics and cognitive models, make it 
possible for us to obtain a richer and more nuanced picture of what 
students know and can do than ever before.
    In closing, we are committed to developing assessment systems that 
provide accountability data and instructionally actionable information 
to students, parents, teachers, administrators, and policymakers. 
Improvements and innovations in assessment methods and technology, 
coupled with the development of common standards focused on both 
content and critical thinking skills, will allow us to better measure 
student performance and ultimately improve student learning.
    Mr. Chairman, thank you again for the opportunity to participate in 
this conversation with you and your colleagues. I look forward to 
answering your questions.
                                 ______
                                 
    Chairman Miller. Ms. Allen.

 STATEMENT OF CATHY ALLEN, VICE CHAIR, ST. MARY'S COUNTY, MD, 
                       BOARD OF EDUCATION

    Ms. Allen. Chairman Miller, Ranking Member Thompson, and 
members of the committee, I am pleased to have this opportunity 
to speak to you today regarding common core standards. As you 
noted, I am a member of the St. Mary's County Board of 
Education; I have been so for 10 years. I am also president of 
the Maryland Association of Boards of Education, and I am here 
to share my perspective not only as a local board member, but 
also the concerns of local school boards across the Nation.
    St. Mary's County is it located at the southernmost tip of 
Maryland 60 miles south of the Nation's capital. We have over 
17,000 students enrolled, supported by over 2,000 teachers. 
Student performance on the Maryland school assessments in 
mathematics, reading, and science is in the top quartile and 
outranks statewide data in every grade level assessed. We have 
implemented a broad range of innovative programs to prepare our 
students for the highly competitive 21st century workforce.
    I share this pride to demonstrate that our school district 
remains committed to improved academic achievement for all 
students. My colleagues throughout the Nation recognize the 
importance of rigorous academic standards to ensure that 
students enrolled in our public schools are competitive in the 
global society. With the passage of the American Recovery and 
Reinvestment Act and the accompanying Race to the Top fund and 
the proposed innovation grants, we will be able to further 
intensify our efforts.
    With respect to common core standards, local school boards 
believe that such standards should be developed by States 
individually or collectively by groups of States to achieve 
this goal. Local school boards also recognize that the Federal 
Government must play a role. However, the Federal role must be 
one of partnership and support to States, not only in terms of 
funding for those students with the greatest needs, but also in 
serving as a clearinghouse to share and promote best practices 
regarding actions to overcome shortfalls in student 
achievement.
    Consistent with the language of the formal resolution 
adopted this year by the National School Boards Association 
Delegate Assembly, we believe the Federal Government should 
support State and local efforts to provide students with an 
education that is focused on the skills and knowledge needed in 
the global world of the 21st century by finding multiple 
education entities, including regional education entities, to 
develop models for voluntary adoption for those purposes, to 
support funding for research, and for States and developing and 
implementing standards; to ensure that the National Assessment 
of Educational Progress, NAEP, and international tests do not 
exceed their intended use; and to refrain from requiring or 
coercing the use of these standards by States in developing 
their own standards for high stakes accountability purposes.
    More specifically, local school boards across the Nation 
oppose making any of these activities mandatory on States or 
local school districts, or as a condition for the receipt of 
other Federal aid. And, we oppose efforts to involve the 
Federal Government, directly or indirectly, to develop 
mandatory or model national content standards or to mandate the 
development of common content standards among groups of States.
    Local school boards are well aware of the ongoing efforts 
by the National Governors Association and the Council of Chief 
State School Officers on Common Core Standards, and we will 
continue to support State-led common core standards that 
includes sufficient flexibility in operations to address unique 
challenges of local communities. The National School Boards 
Association applauds their work in assembling an important 
first step, the draft common core standards in English, 
language arts, and mathematics. We believe that the groups have 
bought clarity to a widely varied and disparate set of State 
standards.
    However, local school boards do have some reservations with 
what appears to be greater coercion from the Federal Government 
in adopting such standards. As an example, the Department of 
Education's Race to the Top program will award competitive 
grants to States that have worthy school reform plans. This 
Race to the Top component effectively would favor States using 
these common standards. The proposed requirements for 
innovations grants recently released by the Department of 
Education suggests support for similar consortia-led approaches 
to developing assessments. The proposed expansion of this 
approach raises some serious questions that will have to be 
sorted out.
    Again, we believe that this system of common standards and 
any proposals for a system of assessments must remain 
voluntary, and States and local school districts must have the 
capacity to successfully implement the standards. Local school 
boards urge Members of Congress to keep in mind that real 
progress is being made and will continue to be made at the 
local level with local school boards, administrators, and 
teachers working together to establish clear goals aligned with 
a rich curriculum and comprehensive instructional plan.
    In summary, local school boards in Maryland and across the 
Nation support the notion of common core standards, voluntarily 
developed by groups of States, as distinguished from and 
preferable to a national or Federal entity. Federal funding for 
the activity, provided it is not in the nature of a mandate or 
coercion such as a condition for receiving grants in aid 
funding for ESEA, or title I, individual States or groups of 
States developing assessments for common standards but oppose a 
national test, the NGACCSSO process and the progress it has 
made on standards to date with our full support, but pending 
the ultimate outcome, and any other valid process undertaken by 
other groups of States.
    Thank you for the opportunity to comment.
    Chairman Miller. Thank you very much.
    [The statement of Ms. Allen follows:]

 Prepared Statement of Cathy Allen, Vice Chair, St. Mary's County, MD, 
                           Board of Education

    Dear Mr. Chairman: I am pleased to have this opportunity to share 
with you a local school board perspective regarding the implications of 
common core standards. I currently serve as Vice-President of the St 
Mary's County, Maryland Board of Education, and I am in my ninth year.
    St. Mary's County is located at the southernmost tip of Maryland, 
60 miles south of the nation's capital. We are best known for our world 
class technology corridor that supports the operations of the Patuxent 
Naval Air Station (NAS). We have over 17,000 students enrolled and 
supported by over 2,000 teachers. At St. Mary's County Public Schools 
we are committed to improved student achievement. Student performance 
on the Maryland School Assessments in Mathematics, Reading and Science 
is in the top quartile and outranks state-wide data in every grade 
level assessed. In reviewing alternate Maryland School Assessments for 
the 2008-2009 academic year, our students continue to rank in the top 
quartile, and exceed the Maryland-wide performance in each grade level 
tested.
    Additionally, we have implemented a broad range of innovative 
programs to prepare our students for the highly competitive 21st 
century workforce through a unique program of study emphasizing the 
core areas of mathematics and science with an infusion of technology 
and engineering. This STEM program is offered to all SMCP students and 
housed at three schools: Lexington Park Elementary School, Spring Ridge 
Middle School, and Great Mills High School. The proximity of these 
three schools to the Patuxent Naval Air Station and the technology 
corridor make them ideal sites.
    I share this pride to demonstrate that our school district remains 
committed to improved academic achievement for all students. My 
colleagues on the St. Mary's County school board as well as other 
school boards throughout the state recognize the importance of rigorous 
academic standards to ensure that students enrolled in our public 
schools are competitive in the global society. With the passage of the 
American Recovery and Reinvestment Act (ARRA) and the accompanying Race 
to the Top (RTTT) Fund, and the proposed Innovation Grants--we will be 
able to further intensify our efforts.
    As you are aware, research indicates there is strong consensus 
among state education officials and local school board members to 
ensure rigorous standards, strong curricula aligned with those 
standards, and valid and reliable systems of assessments that fairly 
and accurately reflect the performance of students, schools and school 
districts. With respect to common core standards, we believe that such 
standards should be developed by states individually or collectively by 
groups of states to achieve this goal.
    We also recognize that in order to further ensure global 
competitiveness the federal government must play a role. However, the 
federal role must be one of partnership and support to states--not only 
in terms of funding for those students with the greatest needs, but 
also in serving as a clearinghouse to share and promote best practices 
regarding actions to overcome shortfalls in student achievement. 
Additionally, we believe that the federal government should increase 
incentives to states and local school districts to create constructive 
remedies, and provide technical support to the states to assess those 
state standards.
    In order to better understand what specific role the federal 
government should play related to state-led common core standards, 
consistent with the Resolutions adopted this year by the National 
School Boards Association (NSBA) Delegate Assembly, we believe the 
federal government should:
    <bullet> support state and local efforts to provide students with 
an education that is appropriately focused on the skills and uses of 
knowledge needed for success in the global and technological world of 
the 21st century by funding multiple education entities, including 
regional education entities, to develop model standards for voluntary 
adoption for those purposes;
    <bullet> support 1) funding for research; 2) financial assistance 
to states or groups of states, when requested, to assist them in 
developing and implementing standards around the skills and uses of 
knowledge that students will need in the 21st century; and 3) direct 
financial assistance to states or groups of states, when requested to 
assist them in developing and implementing content standards; and
    <bullet> ensure that the National Assessment of Educational 
Progress (NAEP) and international tests do not exceed their current use 
to provide comparative data through sampling and oppose requiring or 
coercing the use of these standards by states in developing their own 
standards for high stakes accountability purposes.
    Additionally, we, as other local school boards across the State of 
Maryland:
    <bullet> oppose efforts to make the aforementioned activities 
mandatory on states or local school districts or as a condition for the 
receipt of other federal aid; and
    <bullet> oppose efforts to involve the federal government directly 
or indirectly (e.g. through an entity over which it can exercise 
control) to develop mandatory or model national content standards or to 
mandate the development of common content standards among groups of 
states.
    We will continue to support state-led common core standards that 
include sufficient flexibility in operations to effectively and 
efficiently address the unique challenges of local communities.
    We are well aware of the ongoing efforts by the National Governors 
Association and the Council of Chief State School Officers (NGA/CCSSO) 
on common core standards. We are aware that, with the exception of 
Texas and Alaska, the states have entered into a memorandum of 
understanding signed by the Governor and state superintendents 
declaring their intent to adopt common standards in language arts and 
mathematics within three years. We are also aware that draft common 
standards were released that define the knowledge and skills students 
should have to succeed in entry level, credit-bearing, academic college 
courses and in workforce training programs.
    We join the National School Boards Association in applauding the 
work of the National Governors Association and Council of Chief State 
School Officers for their work in assembling an important first step--
the Draft Common Core State Standards in English Language Arts and 
Mathematics. We believe that the groups have brought clarity to a 
widely varied and disparate set of state standards.
    However, we do have some reservations with what appears to be 
greater coercion from the federal government in adopting such 
standards. As an example, the Department of Education's $4.35 billion 
Race to the Top program will award competitive grants to states that 
have worthy school reform plans--including the adoption of college and 
career ready common standards developed by a substantial number of 
states. This Race to the Top component effectively would favor states 
using the CCSSO/NGA common standards. Additionally, the proposed 
requirements for Innovations Grants recently released by the Department 
of Education suggest support for similar consortia addressing 
assessments.
    Further, this proposed expansion of the consortia-driven concept to 
the adoption of assessments raises serious questions that will have to 
be sorted out. For example, should there be a common assessment or 
should individual states or groups of states develop their own? If 
there is a common assessment, who should develop it? What will be the 
grade by grade timetable for phasing in the changeover? What will be 
the resource needs of local school districts, such as technical 
assistance and funding for professional development, curriculum 
alignment, new course material and new reporting requirements? How will 
school districts and schools be held accountable during the transition 
as test scores are likely to be negatively impacted as teachers and 
students adjust to the changes? After all, as good as standards and 
assessments are, they won't have the desired effect unless school 
districts have the capacity to implement them and have a fair chance. 
These questions are only the tip of the iceberg.
    How this nation deals with standards and assessment is a major 
policy issue. Such proposed federal requirements, in our view, would 
enlarge the federal role and its relationship to the state and local 
levels. Our concern, like many local school boards across the nation, 
is that the effort to date is being led by the executive branch without 
the specific level of legislative direction that would ordinarily be 
expected for measures of this magnitude. We believe that this system of 
common standards and any proposals for a system of voluntary 
assessments must remain voluntary.
    In addressing standards, St. Mary's County, Maryland Board of 
Education urges you to keep in mind that it will be only at the local 
level, with local school boards, administrators and teachers working 
together, that we establish clear goals aligned with a broad and rich 
curriculum and instructional plan, and a climate fostering student 
achievement, that real progress will be made.
    In summary we support:
    <bullet> the notion of common core standards voluntarily developed 
by groups of states (as distinguished from, and preferable to, a 
national/federal entity);
    <bullet> federal funding for the activity, provided it is not in 
the nature of a mandate or coercion (such as a condition for receiving 
grant in aid funding for say ESEA Title I);
    <bullet> individual states or groups of states developing 
assessments for common standards but oppose a national test;
    <bullet> the NGA/CCSSO process and the progress it has made on 
standards to date with our full support pending the ultimate outcome; 
and
    <bullet> any other valid process undertaken by other groups of 
states.
    Finally, we want you to know that NSBA, representing local school 
boards through their state school boards associations, has also been 
clear in working with the NGA/CCSSO project and in its official 
comments on the Race to the Top requirements that local school 
districts will need to have the capacity to successfully implement the 
standards. This means both funding and technical assistance for 
professional development, as well as curriculum and course material 
alignment.
    Additionally, NSBA has also been clear that during the year of 
implementation, transition accountability rules will need to apply, 
recognizing that test scores will likely be lower in the adjustment 
year. This will especially be true if the current NCLB framework is 
still in place.
    Thank you again for the opportunity to comment.
                                 ______
                                 
    Chairman Miller. We will begin our question with Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chairman. Interesting discussion. 
You know, as we look at the need to advance stronger standards 
and assessments, and Mr. Wilhoit, I heard you talking about 
improved standards, vastly improved. What is the difference 
between what we might realize today and those that we are 
advancing, you are advancing for the future?
    Mr. Wilhoit. There have been a number of efforts in the 
past to set standards around, first of all, content only. And 
what we have ignored in many of those is the idea of 
application of that content. We are finding out from the 
business world and from international competitors that not only 
are they asking students to master essential knowledge, they 
are asking those students to apply that knowledge in higher 
level cognitive ways than we have done in the past.
    So simply being able to State what a content recall is is 
one level of knowledge. Another is, what does a student do to 
apply that knowledge to an unknown solution? What does a 
student do to take existing knowledge and apply it? So I think 
one major shift here is that we paid a lot of attention not 
only the content but the application of that in terms of 
student learning.
    Secondly, I think many of the State standards have been too 
low in the past, and what we have found is that, in essence, it 
has created a great deal of confusion by parents and by 
citizens, and that is, that on one set of assessments by a 
State standard you may be deemed proficient, and then we hear 
from another set of standards that you are very woefully 
needing improvement. So this should bring us together in a 
greater cohesion around expectations.
    Mr. Tonko. I like the emphasis on cognitive skill 
development because it is important, but I also know like, as 
an engineer, that we are dreadfully low on the numbers that we 
are producing for science, tech, international and math, and 
this is an international problem. So how can we best address it 
if we do it State by State? There has such transiency to 
college grads today. They will go coast to coast looking for 
jobs. How do we accomplish this when we go State by State 
participation or community by community? Does that not hold us 
back?
    Ms. Allen. If I might respond to that question, Mr. 
Chairman. I can speak to what we are doing in St. Mary's 
County, and I know that it has widespread application across 
the State and the country.
    We are home to the premier test and evaluation base for the 
Navy, the Patuxent River Naval Air Station. Outside of the 
gates of that base that is filled to capacity with very highly 
talented, highly qualified engineers and research scientists we 
have three schools, an elementary, a middle, and a high school 
that have implemented a very comprehensive STEM program, 
science, technology, engineering, and math, that is in 
conjunction with the engineers on that base. They spend time in 
our classrooms working directly with our students. The students 
are spending time on the base working on current projects that 
the base is undertaking. And while not every community may have 
a naval air station in it, there are certainly various 
industries that are in many of our communities that would have 
equal value in providing hands-on application and a 
collaborative approach to the teaching of such subjects and 
make it much more applicable and understanding to the students.
    Mr. Tonko. But, still, the standards that are needed out 
there for cognitive skill development and educational skills 
are universal in terms of supplying the needed workforce out 
there in the future. And I just don't understand how we can do 
that without some sort of universal approach with high 
standards that need to be responded to.
    Ms. Allen. And the National School Board Association as 
well as NAEP and my board do support common core standards, as 
I noted in my presentation, but we are waiting to see what the 
application of that is and how it all falls out.
    Maryland spent 2 years developing very high standards and 
implementing those at a cost of over $2 billion over the last 
six years. We have spent a great deal of time and energy in 
implementing this and in bringing it down to the classroom 
level with all of the requisite textbooks involved, the 
assessments, and so forth. To now take that and set it aside 
when we have reached so far would be quite a challenge.
    Mr. Tonko. Also, the goal of education is to speak to the 
future and be ahead of the curve. How do we take that changing 
scene where many suggest it is going to be team efforts at the 
workplace, dealing with these cognitive ideas of coming up with 
solutions, while we develop a system that measures individuals? 
How do we incorporate that team concept in its assessment also?
    Mr. Wilhoit. There are ways in which those issues can be 
measured, but not through the current kinds of assessments that 
are being provided through the State assessments for 
accountability purposes.
    If we are going to measure those, we are really going to 
have to move down to the classroom level, and that is going to 
have to count as part of the evaluation. One of the problems we 
have had in terms of implementation of the current 
requirements, State and Federal requirements, is that we have 
counted on the summative test to determine accountability 
solely. And when you do that, you remove capacity of States to 
measure those kinds of skills. So one of the changes that we 
are going to have to think about is not just improving a 
summative test but developing assessment systems that allow 
decision-making and build the skills of teachers at the local 
level to measure those kinds of very important skills. You are 
right. When we talk to business and industry, they do talk 
extensively about the ability to work in a team to be able to 
solve problems, to able to play an important role in the 
problem-solving process.
    But, again, if we don't charge local educators with that 
kind of responsibilities and give them the kinds of tools to 
help assess whether students are able to perform in those kinds 
of ways, then we will fall short of our ability. That is where 
transforming a set of very good standards could fall apart if 
we are not very mindful about how we develop assessment 
systems.
    Chairman Miller. Ms. Woolsey.
    Ms. Woolsey. I have a common question for the three of you, 
and it comes from Mr. Kubach's closing statement. I will quote 
him. He said: ``Improvements in innovation and assessment 
methods and technology, coupled with the development of higher 
standards.'' And then he goes on, focused on both critical and 
content and thinking skills.
    But, Mr. Kubach, you, in your written testimony, it says 
``common standards.'' You said higher standards. And that is my 
question: How do we assure that common standards remain the 
higher standards when you have got 48 States, you have got all 
the feedback coming in now of--where is the assurance that we 
are not going to slide to the very lowest denominator on this 
one? And one little aside. How do we ensure that we have art 
and music in our children's lives when we are working on math 
and reading? So start wherever. Start with you, Mr. Kubach. Why 
did you change that word?
    Mr. Kubach. Well, I think, first, to address the issue of 
how do we ensure that the common standards remain high. I think 
it starts with having the evidence base, as Gene Wilhoit has 
described, and the development of the standards. It also means 
that we need to develop a way to internationally benchmark 
these standards so we can ensure that our standards are in line 
with the highest performing countries in the world.
    Ms. Woolsey. Well, who says that these--I mean, who gets to 
make the decision of what is the higher standard versus a lower 
common standard? Mr. Wilhoit?
    Mr. Wilhoit. We have built into the process a very highly 
interactive conversation about maintaining high standards. 
Again, the dynamic that is underway right now in the process 
is, how do we hold on to these critical principles that we have 
had, and yet accommodate the kinds of input that people are 
giving us, input from States as well as other individuals?
    I can say that the pressure in the interactive process is 
on maintaining high standards. Most of the people providing 
input at this point are saying, let's maintain the high ideals 
that we have for these standards, and are offering advice about 
how that can be done. So I expect revisions in the mathematics 
standards that will even raise them higher than the draft we 
have on the table. And I think that conversation English 
language arts is one where we are pushing us to define more 
specifically the kinds of skill development that students are 
going to need. And so I have been really pleased that people 
are pushing on this upward trajectory in terms of high 
expectations.
    Now, that is going to create pressure at two ways on the 
States. There are States that have very high standards at this 
point that we have made a promise to, that no State would be 
asked to lower its current standards to participate in these 
standards, in the common standards. And we have also been very 
frank with the other States that it is going to require some 
changes, and will require both higher levels of expectations of 
educators in those States, but also there is a conversation 
with the public that is going to have to be had about the need 
to improve over time. And that is where we are going to have to 
give these States some time to move from where they are to 
where they need to be.
    Ms. Woolsey. I think we should let Ms. Allen, because I am 
going to run out of time here.
    Ms. Allen. I don't believe that Maryland would ever sign on 
to common standards that were below the high standards we have 
already spent so much time and money implementing.
    That said, we all--and it doesn't matter if you are in 
Maryland or California or Minnesota or Florida. We all expect 
to educate our children to the highest standards. We all 
understand the necessity of our children being able to 
effectively compete in a global society.
    Ms. Woolsey. So tell me then, where does art and music come 
into the program?
    Ms. Allen. Art and music is a very full and rich part of 
the curriculum in St. Mary's County. We have found innovative 
ways to bring them and maintain them, and we would hope to 
maintain them throughout. It is something we will be looking 
at.
    Ms. Woolsey. Mr. Kubach.
    Mr. Kubach. I also agree, what we don't want to do is just 
focus on the common core. I think it is an important 
foundation, but art, music, science, history, social studies, 
all of the subjects are important, and we don't want to have a 
system that ends up narrowing the curriculum.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Miller. Thank you. Mr. Tierney. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. I appreciate the fact 
that 48 States are participating in drawing up these standards. 
I suspect many of them are at the table defensibly, but 
nonetheless they are at the table. Having your bureaucrats draw 
up standards and then having your legislature adopt those 
standards are two very different things. And so I think, 
looking forward, we have to take into account all those 
political dynamics that occur at the State level.
    I don't see how you are going to make this work without 
some sanctions. And we know, as Ms. Allen said, States don't 
want sanctions. I am not sure carrots are enough, though, 
because right now in Nevada you have got a big fight going on 
about whether or not to repeal the law about having test scores 
be used in teacher evaluations just so we can qualify for the 
Race to the Top. So I would like to hear more about how we are 
going to get beyond that.
    And the second thing I would be curious to know, I have 
heard a lot about working with colleges and universities to see 
what you need to do to make K-12 better so students can succeed 
and graduate, but I haven't heard a lot about what those 
colleges of education are going to do to better teach the 
teachers or future teachers how to deal with these new 
standards and meet the standards once they are out into the 
field.
    So if you might address those two questions.
    Mr. Wilhoit. I will take the latter first.
    We have had some very serious conversations. In fact, 
yesterday I had a conversation with the New England States 
college and university system came together to talk about what 
they could do differently in support of and being full partners 
in this. So those conversations are going on.
    This means, first of all, that there is going to be a clear 
set of expectations around what teachers should know. So it 
naturally follows, if students need to know certain things, 
then teachers need to have certain capacities to deliver that. 
And it means greater emphasis on data systems, being able to 
interpret information, being able to intervene in the lives of 
students who need special assistance. Teachers need those kinds 
of skills that many of them are telling us they don't have 
right now. So it means kind of a redesign of many of the 
preparation programs we have in place. It also will mean a much 
stronger relationship between the university resources and what 
is going on in the schools as the teachers are trying to 
implement a much stronger support structure for those teachers 
than we have right now.
    Mr. Kubach. This really is a large effort, and it goes way 
beyond just adopting the standards and having assessments that 
are in line with those standards. It really does start with the 
preparation of teachers and how they are evaluated. It goes 
into the curriculum, training of teachers, what is going on in 
the classroom, our methods, instructional methods. So it is a 
very comprehensive system that needs to be addressed, and it is 
going to take time. And I think we are going to need some 
patience as this is implemented State by State.
    Ms. Allen. I would say to you that sanctions don't work. We 
have had them for years, and things haven't gotten better. So I 
think we have to do something differently.
    With respect to teacher education, it is an ongoing 
dialogue, and it has been a matter of great concern to local 
boards of education through all of our advocacy groups for a 
very long time, and it is, the discussions continue. And I 
think that whatever happens with the common core standards, 
whatever they ultimately look like, that may have an impact on 
teacher education. But when you talk to the experts in teacher 
education, they talk about the basics of understanding and how 
to deliver that model more so than they talk about the 
specifics of what those standards are.
    Ms. Titus. Colleges of education I have often found are 
very hard to get to change their approaches and very 
bureaucratically bound has been my experience in higher 
education.
    Just one other quick thing. I think standards will and 
probably should change over time. You are going to get new 
technology, hopefully you are going to add new subjects. I 
would add geography to that list of art and music as something 
that students need. But are you building in any mechanism for 
the ability for the standards to change over time, or are you 
just going to wait 10 years and have to do the whole thing all 
over again?
    Mr. Wilhoit. No. This is an issue that we are struggling 
with on a regular basis. We know that this is the best we can 
do in 2009 and 2010. We have confidence, we have had an 
extensive process. But we also know that we will fall short. We 
know that we will learn a lot as we attempt to implement. We 
know that there will be research put on the table. And so we 
are accommodating that process and encouraging it. We have even 
had conversations with foundations and with the Federal 
Government about supporting this kind of research of 
implementation and school level, something that is very helpful 
to us as we begin the revision process.
    We don't know in the future what sort of entity might be 
created to sustain this effort, but we think something will 
need to be created. We think, obviously from our point of view, 
that there needs to be a very strong voice of the States and 
that entity as it moves forward. But, again, we have not 
settled on exactly what that might look like.
    Ms. Titus. Thank you.
    Chairman Miller. Mr. Roe.
    Mr. Roe. Thank you, Mr. Chairman. I am sorry I am late for 
the meeting. US Air had a little different problem for me this 
morning. I am going to yield my time to Mr. Thompson. I 
apologize for missing your testimony, but I will read it. Thank 
you.
    Mr. Thompson. Thank you, Mr. Roe.
    Ms. Allen, first of all, congratulations on the STEM 
program that your district has. It sounds like a very exciting 
use of local expertise and resources combined to meet the needs 
of the children, the kids. My first question really has to do 
with that. What role did the local school board exercise in 
creating that opportunity?
    Ms. Allen. The local school board recognized the need for 
engineers, for growing our own. St. Mary's County, being a 
rather rural place on a peninsula, it doesn't necessarily have 
the pizzazz that some other places do. And it is a beautiful 
destination, but you have to get people there to convince them 
that it is a beautiful destination.
    We have wonderful children, wonderful people in our 
community. There is no reason why they are not talented enough 
and skilled enough to be able to have high-paying jobs on the 
base. So we have done a number of things. The Navy reached out 
to us. We have a higher education center that provides graduate 
degrees on site there as well. And through a collaborative 
process between the local board, our superintendent, our 
Congressman, Steny Hoyer, the higher ed center, and the Navy, 
we came together to discuss what was it going to take in order 
to make sure we were growing our own. And that developed into a 
very comprehensive STEM program. It begins in fourth grade. 
Students apply, countywide, based on their math scores, their 
assessments. They provide a writing sample. They must have 
recommendations. And they are screened to determine their 
interests and their ability. It is a very diverse group of 
individuals who are participating in this program.
    Mr. Thompson. So it sounds like a program that really, if 
it wouldn't have been for the local school board, the local 
leadership is what created that opportunity.
    Ms. Allen. Yes, sir.
    Mr. Thompson. Which is great. In that light of role, what 
role did the local school boards have, yours and others that 
you represent as part of your leadership with the State School 
Board Association, to your knowledge, have in the development 
and implementation of Maryland State standards in reading and 
math? And what role did local school boards have in the 
development of the state's assessment?
    Ms. Allen. We were invited to be a part of a stakeholder 
process, we were invited to give our input. Whether that input 
was acted upon is a matter of debate, one I am sure that you 
can understand having been a school board member yourself.
    Are we completely happy with the efforts? No. But we are 
happy with the fact that our students are increasingly 
successful. We still have areas that need attention, and we are 
continuing to work on those areas.
    Mr. Thompson. And what role are local school boards having 
in the common core standards initiative, those developments?
    Ms. Allen. I know that Mr. Wilhoit mentioned that local 
boards were involved. My knowledge does not extend to that, so 
I will have to defer on that question.
    Mr. Thompson. Mr. Wilhoit, can you speak to that question?
    Mr. Wilhoit. We have been interacting with the national 
association throughout this process, engaging them in the 
process. We have provided support to them. We have had open 
invitations for them to participate, and they have done so. And 
we have had local board members, individual board members 
engaged in the feedback work and in terms of responding to the 
standards as we have brought them forward. We have had an open 
invitation to all the education constituency groups.
    Mr. Thompson. Open invitation. What has been the success of 
their response and engagement in the process? How much have 
they actually contributed to the development of those 
standards?
    Mr. Wilhoit. I would have to be more specific for you, and 
I could get that to you.
    Mr. Thompson. I would appreciate that. If you would provide 
that in writing. And based on our time constraints, I would 
yield back the balance.
    Chairman Miller. Thank you. Ms. Hirono.
    Ms. Hirono. Thank you. We are very interested in supporting 
evidence-based school reform that truly positively impacts 
student learning. And as we move toward these higher, clearer, 
fewer common standards, and Mr. Wilhoit, you touched upon this 
a little bit. How do we assure ourselves that these common 
standards, once we get them--and I hope that we come up with 
the appropriate assessments--that these are the standards that 
truly are going to enable our students to be able to succeed in 
school and in life?
    Mr. Wilhoit. We have attempted to draw from the higher 
education community their impression of what the essential 
skills and knowledge would be, and we have incorporated those 
into the standards. We have done so with the business 
community, particularly in those areas where we have emerging 
growth opportunities and rewards for students. So we built--in 
essence, built the standards off of those expectations. So 
there is a good reality check against success in terms of the 
definition.
    Whether those are ultimately the ones that will make the 
direct tie, we are using evidence as best we can through this 
process. As I stated earlier, there are gaps in that evidence 
base that will need further investigation. We will have a 
process of ongoing review and analysis to make sure that, in 
effect, we are following up on the statements we have in front 
of folks. And we will be learning from the local schools as 
they try to implement, and from colleges and universities and 
from businesses as they accept these students into their ranks. 
But this is the first time that we have gone from just an 
opinion sort of thing about what should be taught to more 
strong evidence-based kind of process. Again, I would say all 
of that with the stipulation that we have a lot to learn as we 
move forward.
    Ms. Hirono. I think that is really important, because one 
of the areas that we know there is evidence that supports the 
importance of this kind of experience for our children is 
quality early education, and there is all kinds of evidence 
that shows that it is the foundation for a child to succeed in 
school and life. So the longitudinal information and evidence, 
that may be one critical role that the Federal Government can 
play in supporting that kind of research.
    Mr. Kubach, you mentioned that this situation provides us 
with an opportunity for us to use technology in assessing. I am 
not a big fan of yearly testing, et cetera. I am learning that 
tools, such as smart boards, is a really great way for teachers 
in particular to be able to diagnose whether a particular child 
is learning what he or she needs to learn. Is that the kind of 
technology that you were referring to in your testimony?
    Mr. Kubach. Right. What I am referring to is really 
thinking about this as a system that doesn't just include the 
annual assessments, but also includes resources and tools and 
models of performance that teachers could use in the classroom 
with students so that they can understand how their students 
are doing relative to the expectations that they are going to 
be held to at the end of the year.
    In terms of the delivery of formative assessments in the 
classroom, we see that there is an explosion of different kinds 
of devices, whether they are smart boards or smart phones. And 
there are enough standards in the technology world that we 
should be able to deliver and work with any of these emerging 
technologies.
    Ms. Hirono. It seems to me that as we incorporate these 
kinds of ability on the part of our educators to be able to 
assess very quickly whether a curriculum is working on any 
particular student, I think that is probably, in my view, more 
important than the kind of testing that we have been doing in 
this country. And, Ms. Allen, I saw you nodding your head. Is 
that something that you are doing in your State, incorporating 
more of these kinds of assessment tools to give immediate 
feedback that results in the teacher being able to revise his 
or her instruction?
    Ms. Allen. Absolutely. In fact, we are doing two things I 
would like to talk about. One are the smart boards. And the 
recent infusion of Federal dollars has allowed St. Mary's 
County Public Schools to purchase over 247 smart boards to be 
utilized in our classrooms. When you walk into a classroom 
where students are being assessed using a smart board system 
where they have keypads and are able to answer questions 
immediately and the teacher is able to see exactly what the 
learning curve is for the students and who is getting it and 
who isn't, that is of significant value. Add to that the fact 
that that is the way children are bombarded today is by all the 
electronics. That is how they learn. For us to ignore the fact 
that that is what they are interested in and that is the way 
they learn I think is for us to ignore a huge opportunity, at 
our peril and their peril as well.
    Ms. Hirono. And these smart boards are not exactly cheap, 
so that is probably another way that the Federal Government 
could provide assistance to the schools.
    Ms. Allen. Absolutely. You are looking at about $5,000 a 
board, I believe, and then there is teacher training in order 
for them to be able to utilize as effectively as possible.
    The other thing we are doing is using a data warehouse in 
St. Mary's County that allows real-time data to be used, and 
look at each child individually, outcome by outcome, to 
determine how they are doing. And it has made a significant and 
positive impact on the achievement of all of our students.
    One other point I would like to make in response to 
something that Mr. Kubach talked about, and that would be the 
online assessments. Coming from an emerging rural area that has 
limited broadband access, I would say to you, I am not sure 
that there is a benefit in simply using a computer to record 
your answers if you cannot at the same time be on-line and 
sending that information to be evaluated immediately. And that 
is a problem that is particular not just to St. Mary's County 
but across the Nation.
    Mr. Hinojosa. Thank you.
    Chairman Miller. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I apologize for the 
delay in arriving. I had several other meetings that were 
really urgent. I just want to bring up a different issue. 
Earlier this year, I introduced as, I have for the past several 
years, introduced a bill to provide a educational achievement 
for kids called the Speak Act and Senator Dodd introduced a 
companion bill in the Senate. The whole purpose was to try to 
work with NAEP to provide national voluntary standards in 
science, math, and reading. I would like to think that the 
emergence of this potential act probably stimulated the States 
to beginning the work that they have done. And more power to 
them. If they wish to take on this task of creating voluntary 
standards, so much the better.
    However, one concern I have is, as I understand it, Mr. 
Wilhoit, you can respond to this, I believe they are working 
just on the reading, language arts, and math, and not science. 
And yet, one of the biggest concerns is, how do we prepare our 
kids for the jobs of the future? And you all, I am sure you 
know all the statistics about how much better than other 
nations are doing than we are informally on the OECD nations we 
are usually near the bottom in science and math. And China 
produces three to four times as many engineers per year as we 
do. And it goes on and on.
    What was the reason for not tackling the science standards? 
Because I think that is equally important than math and reading 
and in some ways more important. Let me just give an example. 
If you don't get kids excited about science in elementary 
school, they are not likely to take the advanced science 
courses in high school. If they don't take them in high school, 
they are in for a big shock when they go to the university and 
say, I would like to be an engineer, because they face 2 years 
of makeup work before they can even really get into the 
engineering curriculum. And so I think it is very, very 
important to get started with science in the elementary and 
secondary schools. I appreciate any comments you can make.
    Mr. Wilhoit. We would agree with the urgency of improving 
science experiences for students at the elementary and high 
school level and agree the importance of it. We simply started 
with these two areas because that is about all we could handle 
at this point. I would say to you that the science community is 
very interested in a similar process around science standards, 
and toward that end they are convening currently to bring 
forward their consensus of what they think those science 
standards could be. So there is activity going on within the 
science community to bring forward something for States to look 
at. It is just trailing in terms of its development. We are at 
this point simply immersed in the work of these two content 
areas.
    Mr. Ehlers. And what do you think the chances are that your 
work will carry on and use whatever is provided by the science 
community?
    Mr. Wilhoit. Well, I think this is a very healthy process 
for us, unlike the one we just engaged in. It would be nice to 
have that kind of consensus coming from the community. I think 
it would make a smoother process for State consideration. But 
there is an interest on the part of the States to address 
science at some point, and so it seems to me it is a matter of 
the community coming together with their recommendations and 
then bringing it to work at some public process that the States 
could engage in.
    Mr. Ehlers. Okay. You said you were somewhat sure.
    Mr. Wilhoit. Yeah. And I would say that basically, at this 
point, despite some concerns about adoption town the road that 
this has been a successful experience. It has had--it has been 
very dynamic, as I said. But I think, if the States can come 
together around these two areas, we see success. I see no other 
reason why we could not move forward in some of the other 
disciplines. We have also had an interest in citizenship 
education and interest in the arts, so there are some other 
communities out there that are interested in promoting a 
commonality across their content areas.
    Mr. Ehlers. Two additional questions. One, I noticed Alaska 
and Texas have not participated. Do you expect they will 
participate once the standards are developed?
    Mr. Wilhoit. We have had some direct interaction with the 
folks in Alaska around us. They are watching this. We have had 
direct statements that in Texas they probably will not 
participate. So those things can change as we move forward. We 
are treating everyone as equal partners. We are still engaging 
those individuals who want to be a part of the process. So 
there is no closed door to anyone on this.
    Mr. Ehlers. Thank you very much.
    Chairman Miller. Mr. Holt.
    Mr. Holt. Thank you. I would like to follow on some of what 
Mr. Ehlers has been asking. Rather than lead you Socratically 
through a long list of questions to establish the point that 
perhaps not the only but the best way in today's schools to 
develop critical thinking and independent thinking is through 
science, science education.
    I noted early on when you said that the emphasis in this 
will be what students should know. I believe that is what I 
heard you say. And you established this by going down the two 
paths of talking to industries and people out in the world 
about what they need, and then looking through the educational 
process.
    There is at least as much need for how students think to 
develop--at least as much need to develop how students think as 
there is to develop what students know, and science, it seems 
to me, is a critical part of this. And so I would like to find 
out how it is that science got put on the slower track in this, 
just to follow up on Mr. Ehlers' questions.
    Mr. Wilhoit. Just--I hope I said ``know'' and ``are able to 
do,'' because I do think that both of those are critical 
attributes. And being able to apply it is just as critical as 
having content knowledge.
    In terms of the development process, it was simply a call 
on our part to take the two areas that were being emphasized in 
terms of student performance at this time. There was no attempt 
to eliminate science in the long run; it was merely a matter of 
how many of these can we move forward at a single time. And I 
think, in retrospect, two of them at this point was about all 
we could have handled. And because there was such a strong 
voice out there in terms of mathematics development, the fact 
that many of our students were eliminated from the math 
curriculum, that we were falling behind in terms of math 
achievement, the fact that NAEP had been reporting more 
continuously against English, language arts, and mathematics 
sort of led us to that beginning point, again, with no attempt 
to slight the other content areas.
    Mr. Holt. So where is it in those two areas, in the reading 
and the math, that students will learn to ask critical 
questions about how ideas are developed and how they are tested 
in empirical and verifiable ways how ideas get into the realm 
of general acceptance? Where will they learn that in those two 
areas?
    And let me just finish with the footnote is, again, I think 
the most effective way for students to learn this, I think, has 
been demonstrated over and over is through science education.
    Mr. Wilhoit. I would say that the general--conversation in 
the science community at this point is really about how do we 
merge the scientific inquiry methodology with the essential 
knowledge, and how do those two come together in an important 
conclusion that leads to a set of standards that we can all be 
proud of and promote. So that conversation is going on in 
science. A similar conversation is going on in mathematics and 
in English language arts. That is, not only should students 
know good literary work, but they should know how that literary 
work compares to other literary work, how one draws conclusions 
about an author's intent compared to the intent of another 
author. How do we take a certain literary work and the 
components of that literary work and apply it to a new piece 
that a student might write. How does a student express oneself 
in ways that bring meaning to that enterprise? In mathematics, 
obviously, it is not simply learning the formulas or being able 
to recite those formulas, but being able to take a mathematical 
dilemma and solve that dilemma using prior knowledge and 
bringing together content from other areas.
    So each one of those disciplines brings to it both a 
central content knowledge, a content base, and an application 
process. It is unique in science, and it does push this to a 
wonderful conclusion in science and one that we are looking 
forward to working with.
    Mr. Holt. Thank you, Mr. Chairman.
    Chairman Miller. Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    To the panel, I proudly hail from the city of New York, 
borough of Brooklyn. And in New York City, with one of the 
largest, most diverse school districts in the Nation, we have 
two types of diplomas; we have a local diploma and we have a 
regions diploma. The academic standards required to obtain a 
local diploma are not as rigorous as the standards required to 
obtain a regions diploma. However, we are currently in the 
process of phasing out the local diploma.
    There is great concern in minority communities, in 
particular, that once this happens, the already low minority 
high school graduation rate will plummet even further. 
Likewise, once national standards are instituted, many 
educators predict that it will be the minority students who 
will disproportionately suffer from the challenge and impact of 
these new standards.
    So here is my question. How should we address this 
achievement gap?
    Secondly, are there any discussions taking place that truly 
integrate multicultural curriculums?
    Finally, I think this question is especially pertinent in 
light of the fact that by 2045, it is predicted that minority 
students will be in the majority in most of the schools in 
America. So I just wanted to get your response.
    Mr. Kubach. One of the great advantages of moving to an 
online platform and bringing that technology into the classroom 
and using that technology to assess and diagnose and help 
teachers and students move forward is that we can offer a much 
broader range of options and accommodations. So, for example, 
we can support English language learners in their native 
language. We can provide materials and we can provide 
activities and projects in a much richer set of approaches to 
engage and capture kids' imaginations on those subjects.
    Ms. Clarke. Let me just sort of add my take on multi-
cultural curriculums. It is not just necessarily about the 
ethnicity or the person's language barriers, but it has to do 
with a comprehensive look at all of the contributions that the 
diversity of our Nation makes, and incorporating that wholly 
into the curriculums.
    If you look at American history today, there are 
deficiencies. It does not speak to the whole of who 
participated in American history. Certainly when students look 
at the curriculum, if it is not reflective of their experience 
right there, you begin with a deficit. I just wanted to add 
that.
    Mr. Wilhoit. Our sense is that the creation of common high 
standards will bring to light the concern you raised. It will 
be perfectly clear which students are not achieving and which 
ones are, and what resources are behind certain students and 
what resources are not.
    So I think the potential here would be to take a set of 
high standards and put them on the shelf or to take these high 
standards and begin to think about how we remediate and deal 
with the problems that exist in the system. It will make it 
much more transparent about where the students are learning and 
where they are not, and it will put some pressures on the 
system that we don't have right now because we will get by this 
argument about what does one student know and what one does 
not. We will get to the issue of what resources need to be put 
behind students to make them all successful.
    Ms. Allen. If I may also respond, Mr. Chairman, we expect 
that common core standards are going to be the be-all solution 
for our students, we are mistaken. It is a multi-pronged 
approach. It must be a multi-pronged approach. We cannot wait 
until we are administering high stakes exit exams to discover 
that our students aren't where they are supposed to be. It has 
to start with quality, early childhood education, full day 
kindergarten. Our students have to understand and know how to 
read by the end of second grade because they learn to read by 
the end of second grade. By the beginning of third grade, they 
read to learn. They must be able to read to learn.
    So I would say to you that there is not a single solution, 
but it is something that is on the minds of every single school 
board member across this country.
    Chairman Miller. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I wonder if you can give me a sense of the urgency in this. 
We talk about this all the time. We have looked at some of the 
countries that come basically from the bottom to the top and 
what their governments did to make those changes. I would like 
to know from your perspective, and what role should we be 
playing? I know people care deeply. I know that the Race to the 
Top is one effort, and that's substantial now. In your opinion, 
where is the urgency lacking as well and how can we move that 
forward?
    Mr. Wilhoit. I am not sure it is as much an issue of lack 
of will as it is not knowing where to go. I think we have been 
bombarded with lots of different solutions recently. We have 
been forced, in a positive way, to realize that our country 
needs to dramatically improve the opportunity for our children, 
and we have made direct connections between that lack of 
achievement and our economic circumstance in our future.
    What we need now, and I think the sense of urgency around 
the common standards, is a true one. I described it as 
essential but insufficient in terms of our work that is ahead 
of us. If we can develop this base of understanding and 
agreement across the country among the States about what 
students should know and be able to do, then we can get about 
that task of development. But it will require considerable 
effort in terms of development of curricula framework that 
translate those standards so a teacher can then apply those 
standards in a classroom.
    It will take a redesign preparation program system in the 
country. It will require new forms of professional growth that 
we don't have currently in place. It will require significant 
focus, attention and diligence to this task over the next few 
years for us to get it done.
    If we waiver on those issues, we will probably find 
ourselves 5 to 10 years from now back to where we are now which 
would be a crime for this country.
    Mrs. Davis. Do you see those commitments based on resources 
available today? It is important to have the resources and to 
have the financial support, and on the other hand, we are never 
going to have what we need.
    Mr. Wilhoit. I think it is partially resources, but it is 
also thinking about how we educate each child. I think there is 
a major conflict right now. Our historic education school, as 
we have designed it, is in conflict with the goals we set for 
our children. So the attention, the energy in the future is how 
do we design learning programs so that every child is 
successful, and we may not be able to do it unless we change 
some of the basic assumptions around schooling.
    Mrs. Davis. I think the other concern that we see is the 
way in which we approach subjects and the kind of depth with 
which professionals are encouraged to deal with those topics. 
We have a tendency to move through textbooks at a rapid rate, 
and we are really not getting the depth. I think we know that, 
we have been studying that, and yet do you see that reflected 
in the standards and the discussions that are being held 
throughout the country?
    Mr. Wilhoit. Yes, definitely. This issue has been brought 
to our attention by teachers very directly. We have asked them 
to teach too many things in shallow ways. Students are not 
reflecting the depth of knowledge they need to know. We have 
not asked teachers to teach to mastery around those essential 
knowledge and skills so that the students can move and progress 
through the educational system.
    There is a great awareness of that in the standards 
development, and hopefully that will be reflected as a part of 
the new document.
    Mrs. Davis. Thank you.
    Chairman Miller. We have a couple of moments, and we have 
just a few more questions.
    Mr. Kubach, in your statement on page 7 you raised the 
question about whether or not the common core standards are 
simply a summit of assessment or part of an integrated system. 
With the smart boards and with online content being more and 
more part of the education system, we really see the ability to 
move up and down the assessment, if you will. If you are stuck 
with a textbook and you have the questions at the end of the 
textbook, you are stuck with the questions more or less. But in 
this one, a student may not only recite the facts and 
understand that they got the facts about that subject at that 
moment, they may also be able to demonstrate that they 
understand how those facts would be applied to a series of 
problems and move back and forth.
    A teacher may get, as Ms. Allen pointed out, real-time 
feedback exactly what is taking place in that class, whether it 
is the clickers or the pads, or what have you. But then to be 
able to move to a more expansive assessment, to maybe pull a 
teacher and students together in real-time to deal with those 
deficiencies in however those concepts or material didn't get 
translated. That is very different from today, but I also think 
it is very promising.
    But the blast against No Child Left Behind, and I think 
quite correctly so, and I say that as a proud author of it, is 
that we ended up putting a very high stakes outcome on a single 
assessment. I think what you are suggesting to us is we need 
not do that. We can be much better informed about what is 
taking place in this school or this school district because of 
these other ways of measuring what students are learning and 
also be able to remedy deficiencies in real-time. We may end up 
having a year of course assessment or end of high school 
assessment, exit exams, however you want to do that, but you 
now have, you keep talking about an online platform, it seems 
to me you have the ability of really allowing teachers and 
principals and others to move back and forth across the 
knowledge base that students have to reinforce it, expand it, 
or remediate it.
    Mr. Kubach. You are absolutely right. There are a couple of 
issues here.
    First, there is a primary role that the summit of 
assessments have when we are introducing these new common core 
standards of really defining what the goal is. Until we define 
that goal, the standards really will not be clear and we won't 
be able to then show teachers and show students where they need 
to be to truly be ready for college or ready for work based on 
these international benchmarks.
    That being said, if we can move the assessment system to a 
technology-based platform and get out of paper, then we do have 
the opportunity to manage a system across the year where there 
are rich activities that are going on throughout the year, 
where there is information that can be immediately fed back to 
teachers so that they can adjust instruction and personalize 
the learning experiences to help each individual child get to 
the end goal.
    Chairman Miller. Don't you also, in theory, have the 
ability to have a student build their own portfolio, to 
accomplish tasks that are consistent with the standards, and 
accomplish projects consistent with the standards; online 
curriculum test challenges, depth of knowledge, can all be 
presented to them, and the students can challenge themselves. 
And to build a portfolio that, in many ways, would be much 
richer than whether they were reading at grade level at 4th 
grade and that is the end of the assessment, and we don't know 
a hell of a lot more about that student other than they made 
AYP and we are worried about the kid next to them?
    Mr. Kubach. You are absolutely right. One of the traps that 
we fell into, with a paper-based system and the budgets 
available, many States have eliminated lots of the rich 
performance tasks from their assessment systems, and they are 
really just implementing the least expensive kind of assessment 
they can deliver which is a multiple choice, paper-based, 
machine-scored assessment.
    If we can move beyond that, we will be changing the focus 
away from preparation to succeed on those kinds of assessments 
to the kinds of rich experiences that you have been talking 
about where children are demonstrating what they can do and how 
they can apply knowledge in different ways.
    Chairman Miller. Thank you. Turning to my colleagues, I 
would just encourage my colleagues on the committee to read the 
paper that your collaborative effort put together on addressing 
these assessments because I think they will see that many of 
the criticisms and concerns, and very legitimate concerns we 
have had about accountability under No Child Left Behind, are 
really addressed in this in terms of where we can go in the 
future, which I think is very exciting for teachers, parents, 
and students in many, many ways in having that kind of body of 
information about how their children are doing or students are 
doing.
    Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. I want to express my 
appreciation to the panel for your testimony, and I am going to 
yield to Mr. Castle.
    Mr. Castle. I thank you for yielding.
    Mr. Wilhoit, where are the chief State scholars with 
respect to the common assessments? I understand the standards 
and the commonality there, it has been explained today. But it 
is still unclear to me about exactly what everybody is thinking 
about assessments down the line, which is a necessary part in 
determining where we are. I wonder if you have a position or 
what you are looking at or what you are doing in that area?
    Mr. Wilhoit. We have had a number of conversations, the 
latest being a couple of weeks ago, about where the States are 
against assessments. I think basically the point is we have got 
to get past this constant conversation in the country about 
which assessment really does measure student progress and get 
by the differences that exist.
    There is a desire on a part of a large majority of the 
States to come together around commonality and assessments. How 
that will come about is yet to be determined. There are some 
individual areas of the country, New England States have 
already had a good experience around a common assessment 
program. That has been reported very positively. Other State 
are looking at expanding that network.
    There have been conversations in the Midwestern States 
about a similar kind of assessment design, and there is this 
conversation about how many States would like to come together 
around a common assessment, around the common core standards. 
And there has been a considerably positive response to those 
areas. We are in those early phases of conversation and we will 
see how it plays out, but there is a very positive environment.
    Mr. Castle. I assume it would be on a voluntary basis?
    Mr. Wilhoit. That is correct.
    Mr. Castle. Mr. Kubach, if we had common assessments, then 
you get to the whole area of security. If we go to the online 
assessments, as you have advocated here, that may raise some 
questions too as to the fact that they can be flashed all over 
the country in a hurry, or whatever it may be. What are your 
thoughts about that aspect of the assessments, the testing 
process?
    Mr. Kubach. That is a very important question, and security 
is a really important concern. Security and data privacy is an 
important concern as we move things online. I think there are 
aspects of moving to an online assessment where they are 
actually much more secure than the current system. So when the 
current system, which is primarily paper based, we are creating 
tests that are shipped all over the State in whatever State we 
are working in, and are stored in schools, sometimes weeks 
before the tests are given. Then after the tests are given, 
they have to be packaged up and assembled in order to be 
shipped back. So there are actually weeks when these 
assessments are either sitting in a room at the school or they 
are traveling by UPS or FedEx back and forth to the scoring 
company. Those are all places where the tests can escape. And 
in an online environment, there is actually much less 
opportunities for that to happen.
    Mr. Castle. I yield back to Mr. Thompson any time he has 
remaining.
    Chairman Miller. Thank you very much. Thank you for taking 
your time and expertise and all you are doing on behalf of this 
effort. I continue to believe it holds out great promise for 
our Nation's students.
    Thank you. Members who want to submit an opening statement 
can do so for the next 14 days.
    With that, the committee stands adjourned.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Chairman Miller, and good morning. We're here today to 
take a closer look at the Common Core State Standards Initiative and 
how coordinated efforts to strengthen academic standards can enhance 
American competitiveness.
    The Common Core Initiative is being developed through the joint 
leadership of the National Governors Association Center for Best 
Practices and the Council of Chief State School Officers. The goal of 
the initiative is to provide a voluntary, research and evidence-based 
set of standards for mathematics and English-language arts.
    I want to emphasize the word ``voluntary'' in that description. 
While the Common Core is still under development, I don't believe 
anyone involved in the initiative intended for it to become the one and 
only set of academic standards in the United States.
    For that reason, I'd like to focus my remarks this morning not on 
the quality of the standards themselves, but on what the federal 
government is doing with those standards.
    Secretary Duncan has not been shy about his intentions to 
dramatically reshape education through the Race to the Top fund. And 
one key component of the Race to the Top guidelines is the requirement 
that states participate in and adopt a set of common academic 
standards. The Department has even gone one step further, offering to 
provide funding to help states develop assessments based on those 
common standards.
    The only common, multi-state academic standards I am aware of are 
those being developed through the Common Core Initiative. Therefore, it 
stands to reason that any state wishing to receive funding through the 
Race to the Top program will be mandated to adopt the Common Core--and 
to test its students based on those standards.
    In other words, the Common Core is being transformed from a 
voluntary, state-based initiative to a set of federal academic 
standards with corresponding federal tests.
    I've met with Secretary Duncan on several occasions and I applaud 
his enthusiasm when it comes to education reform. Yet I am particularly 
troubled by this aspect of the Race to the Top guidelines and the 
ramifications of federal involvement in academic standards.
    We know academic standards vary widely from state to state. Some 
states have set the bar low--too low, in my opinion--leaving their 
students unprepared to compete on the world stage. Yet other states 
have risen to the challenge, setting extremely rigorous standards and 
holding their students accountable to these high expectations.
    The Common Core has the potential to support those states whose 
standards are falling short. But mandatory adoption could have the 
unintended consequence of lowering the bar for states and local 
communities that have voluntarily established standards even more 
rigorous than those developed through the Common Core.
    I also have questions about what role parents and local education 
officials will play if the Common Core becomes a de facto national 
curriculum. Traditionally, local school boards have been active in the 
development of academic standards and assessments. This allows parents, 
teachers, and communities to have a voice in what our children are 
taught.
    A voluntary Common Core could serve as a baseline, to be modified 
and enhanced based on local needs. But by mandating adoption of the 
Common Core, the Department of Education could undermine the ability of 
local educators to shape and customize what gets taught in individual 
classrooms.
    The Common Core Initiative is an important tool in the effort to 
strengthen academic standards. But it is only one element of what 
should be a much broader strategy on the part of states and local 
communities working in partnership with the public and private sectors 
to enhance American competitiveness.
    I applaud the NGA and the CCSSO for their leadership. Their efforts 
to develop a voluntary set of rigorous academic standards must not be 
undermined by federal intrusion. I look forward to discussing these 
concerns with our witnesses today, and I yield back the balance of my 
time.
                                 ______
                                 
    [Additional submissions by Mr. Kubach follow:]

           Thoughts on an Assessment of Common-Core Standards

   Stephen Lazer, Vice President, Assessment Development, ETS; John 
Mazzeo, Vice President, Statistical Analysis & Psychometrics Research, 
ETS; Jon S. Twing, Executive Vice President, Assessment & Information, 
Pearson; Walter D. Way, Senior Vice President, Psychometric & Research 
      Services, Pearson; Wayne Camara, Vice President, Research & 
  Development, The College Board; Kevin Sweeney, Executive Director, 
                   Psychometrics, The College Board.

                       draft (november 16, 2009)
Preface
    The College Board, ETS, and Pearson have formed a collaboration to 
explore how innovative approaches and best practices in high-quality 
assessments can be applied to the creation of a common assessment 
system. Our objective is to work with states to develop an assessment 
system that will improve learning. We propose to design an integrated 
system that can provide accountability data, instructionally actionable 
information, and can inform teacher professional development and 
evaluation. Combined, we have extensive experience in the research, 
development, and delivery of a wide variety of assessments. We have 
worked within and across all 50 states and have worked together 
collaboratively for many years. Our expertise includes the development 
of innovative computer-based assessment systems and student growth 
measures, and the application of a wide range of item types and scoring 
approaches to provide timely feedback to teachers and students.
    This paper is an attempt to raise key assessment design questions 
and discuss some ideas for a systematic high-level assessment design 
that satisfies many of the needs expressed by stakeholders. It is meant 
only to begin discussion, and not to serve as a firm and fixed 
recommendation.
Introduction and Summary
    American educators stand at a moment of unprecedented opportunity. 
With opportunity, however, comes risk: decisions we make may well 
affect the course of assessment in the United States for years to come. 
Advances in technology, coupled with innovative assessment task design 
and advanced psychometric and cognitive models, make it possible for us 
to obtain a richer, more intelligent, and more nuanced picture of what 
students know and can do than ever before. While the historical 
opportunity to change the direction of education is real, so are the 
challenges inherent in any change in assessment paradigm. At the heart 
of this challenge is one point that is too often missed in these 
discussions: Different stakeholders will set diverse priorities for an 
assessment system. Some of these stakeholders value snapshots of what 
students know and can do at fixed points in time and consider the use 
of these data for accountability purposes as the highest priority. 
Others value obtaining multiple points of data that can be used to 
evaluate schools and teachers systemically. For some, instructionally 
actionable data at the student level for the purpose of improved 
instruction is the main system goal, while others are more interested 
in data at higher systems levels for auditing or ``return on 
investment'' type of decisions. Most want formal assessments to be as 
short and inexpensive as possible, while others would trade some cost 
and time efficiency to have more authentic, complex, and reliable 
tasks. Some stakeholders require data that are unambiguously comparable 
across states and districts, while others would rather see some 
substantial state and local control over the content of assessments.
    No single assessment, not even an integrated assessment system, can 
optimally serve all possible purposes. Any assessment design is 
therefore a compromise. Tests that provide optimal instructional 
feedback may not be the best way to get an overall snapshot of what 
students have learned over the course of a school year. The need for 
formative information is not necessarily consistent with the need for 
data that can be used to evaluate teacher or school effectiveness. 
Tasks that model good instruction are not always consistent with 
desires for tests to be as short as possible and for scores to be 
returned immediately. The desire for comparability of data across 
jurisdictions stands in tension with wishes to allow those 
jurisdictions and their teachers and curriculum specialists substantial 
and variable input into the form and content of assessments. The need 
for low operational cost may be at odds with many other goals of the 
system. Efficiency in the long term involves investments in technology 
and human capital in the short term.
    Policymakers should consider the three principles following from 
this discussion:
    <bullet> First, we should think of systems of assessments rather 
than individual tests, as this is likely the only way to satisfy the 
various information needs identified by stakeholders.
    <bullet> Second, we are at a moment when new technologies and 
assessment methodologies provide us an unprecedented opportunity to 
satisfy many perceived needs in a carefully structured integrated 
system.
    <bullet> Third, we must realize that, even in a complex system, we 
will need to choose among competing and conflicting priorities.
    This document represents an attempt to create a high-level 
framework for an assessment of common-core standards. We arrived at 
this framework in the following way: First we considered a series of 
questions regarding the likely design requirements of such an 
assessment system. Then we considered various factors and made 
judgments about competing priorities. This led to a high-level 
assessment model, along with a discussion of various matters that 
require further research and more thought. Different decisions about 
priorities would certainly result in different assessment designs, and 
we tried to point out places where alternate decisions might have such 
impact. For this reason, this document is meant to begin a conversation 
about not only these priorities but all aspects of such an assessment 
design and is not intended to provide the answer or solution. This is 
also meant to be a high-level design document. We will prepare 
additional documentation that will discuss, in greater depth, topics 
such as elements of the assessment system that are designed to provide 
instructionally actionable information, exercise types that can be 
used, how scoring might be accomplished, the special needs of high 
school testing, the assessment of students with disabilities and 
English-language learners, and how the assessment system might measure 
student growth.
Executive Summary
    The bulk of this document describes how we answered the key design 
questions and explains our suggested assessment framework. Before 
moving to this discussion, we have included an executive summary of 
what we believe to be key design elements of a forward-looking 
assessment system:
    1. The educational system needs both accountability and 
instructionally actionable data, and no single test will be optimal to 
provide both. Therefore, we believe that the goals of this new effort 
will be best served by an integrated assessment system that includes 
summative and formative or interim elements built to a common 
framework. If the American Recovery and Reinvestment Act (ARRA) funds 
support only the development of the summative elements of the system, 
we should ensure that the system and system infrastructure are designed 
to work with formative and interim elements designed and developed by 
others.
    2. The system must measure common standards and must allow for 
state-to-state comparability on the common standards. To accomplish 
this, the new summative measures should have a set of common components 
assessing the common standards, and produce scores and performance 
indicators that are comparable across states. However, the system 
should also allow states to augment this core with materials of their 
choosing to produce separate state-specific information.
    3. The summative portions of this battery will need to include, at 
a minimum, end-of-year tests for grades 3 through 8 in both math and 
English language arts (ELA) at the elementary and middle-school levels. 
At high school, the system may include either ``end-of-domain'' or 
``end-of-course'' assessments. The elementary and middle-school tests 
should support growth modeling and across-grade comparability. The 
assessments should also support within-grade proficiency standards. 
While we believe these end-of-year and end-of-course/domain assessments 
should be part of the system, we also believe we should consider using 
data collected over the course of the year as part of the summative 
system (see point 9 below).
    4. Assessment designers will likely need to incorporate 
international benchmarking and facilitate comprehensive alignment 
efforts, although the methods for accomplishing these goals have not 
yet been determined.
    5. The tests should be delivered on computer or other similar 
technology. Student mastery of emerging standards can likely not be 
measured based on paper assessments alone. Further, summative 
assessments should make use of adaptive administration, although 
adaptive models will need to make allowances for the full range of item 
types needed to measure emerging constructs, including those that will 
be scored by humans. We envision that such a system will ultimately 
support the on-demand needs of a personalized education system.
    6. The development of assessment tasks will be based on an 
Evidence-Centered Design (ECD) process that involves experts and 
stakeholders. To measure the intended constructs, the tests will likely 
need to use a range of tasks and stimulus materials, and will need to 
include more than traditional multiple-choice questions. Important 
decisions will need to be made regarding how constructed-response 
questions are scored, though we picture a mixed model that uses 
technology and professional (e.g., teachers and other subject matter 
experts) scoring that is supported by assessment technology 
infrastructure. Such a system will also provide opportunities for 
professional development.
    7. Compared to current summative tests, items and tasks should be 
created based on an improved understanding of learning and development, 
both to promote better interaction with formative elements of the 
system as well as to provide models consistent with good instruction.
    8. Tests should be as accessible as possible to students with 
disabilities and English-language learners, and designers should make 
use of technology to improve such accessibility.
    9. Certain forward-looking ideas should be considered that may or 
may not be ready for operational implementation at the time of initial 
rollout of the new system. Perhaps most important among these 
considerations is that summative assessments may not be single-testing 
events but could augment end-of-year tests with data collected over the 
course of the year.
    10. We should have careful plans in place to validate assessment 
scores and claims made based on them, as well as a long-term research 
agenda to continuously improve the efficacy of the assessment system 
for its intended purposes.
Discussion
    The pages that follow detail the process through which we arrived 
at the general parameters listed above.
    1. Should we consider the test of common-core standards as simply a 
summative assessment or as part of an integrated system that involves 
interim and/or formative components as well as summative assessments?
    As previously stated, no single assessment can be optimal to serve 
all possible needs. It is possible that the United States Department of 
Education (USED) will use the Race to the Top (RTTT) grants to focus on 
the development of summative assessment systems. Summative assessments 
will remain a key element of an educational quality-management system, 
and one of the main goals of this effort is to improve the quality and 
efficiency of our summative systems. However, without questioning this 
goal, we believe that American education would be best served by an 
integrated system where summative and interim or formative components 
are built from common frameworks and cohere as an information provision 
system. The system, taken as a whole, should provide both 
accountability and instructionally actionable information without 
unduly or unrealistically burdening any given component (for example, 
summative tests should not be expected, on their own, to provide in-
depth instructionally actionable data). It is not necessary for the 
USED common assessment grants to pay for the development of formative 
elements. It is essential that the summative systems be designed to 
work in tandem with these formative elements.
    There are a number of reasons to favor an integrated system. First, 
formative and summative components will likely both function better if 
built to work together. Specifically, they should be built to meet the 
same skills standards and to a common assessment framework. They should 
be constructed using open technology standards and assessment 
frameworks so that material can flow from one set of instruments to 
others. Second, an integrated system should relieve pressure from the 
summative tests to serve a purpose for which they are not ideally 
suited: to provide in-depth, reliable, and valid instructionally 
actionable data. This is particularly true at the level of individual 
standards, where coverage on any summative test will be, by necessity, 
limited (even in cases where, as we propose, flexible or adaptive 
administrations or multiple administrations throughout the school year 
can be used to get better information at this level). Attempts to 
provide such data from a summative test will increase pressure to 
lengthen tests--pressure that will become especially important since we 
believe the system should exploit technology for delivery. An 
integrated system should prove far more likely to meet the varied goals 
people have set for the assessment.
    While the ability of summative measures to provide formative data 
is limited, one could, in a carefully designed and integrated system, 
view summative assessments as providers of information to formative 
systems, particularly for students who have ``outlier performance'' in 
some area. In these cases, summative data might focus teachers on areas 
where more testing or diagnosis seems indicated. This could involve 
thinking across grades. For example, a summative result at grade 5 
could identify students who appear to be struggling in certain areas. 
Based on the specific nature of the results, the system might identify 
``diagnostic intake test'' components that would be administered at the 
beginning of grade 6. These would not go to all students but only to 
those whose grade 5 results had indicated the need for further testing.
    There are, of course, a number of different models for how an 
integrated assessment system might provide instructionally actionable 
information. An integrated system can include formal elements like 
interim assessments, which are given throughout the year to get a 
snapshot of how students are doing in mastering the required skills, or 
diagnostic adaptive assessments, which provide more in-depth 
information on the gaps in student learning or performance. Both 
components could utilize banks of performance tasks/assignments and 
scoring rubrics available for teacher use. While this paper focuses on 
summative elements of the new system, we plan to address different 
models of providing instructionally actionable information in a future 
paper. However, any of these models assumes certain educational system 
requirements, including the ability to deliver various assessment 
components via computer, an automatic way of linking assessment results 
with enrollment and teacher information, and a series of connections 
between assessment results and curricular materials.
    Formative assessment components of an integrated system may be 
excellent areas to allow for customization, differentiation, and local 
education agency involvement in development. While there are common 
standards, to the extent that districts and states use different 
curricula to address the common standards it is possible that they will 
prefer to incorporate different formative systems within their 
instructional programs.
    As mentioned above, this paper focuses on summative components of 
the assessment system. One open question is whether accountability data 
will come solely from single summative tests, or whether data gathered 
over the course of the year can be part of a formalized accountability 
system. In the latter case, we can possibly increase the amount of 
instructionally actionable data that comes out of summative systems 
(although not to the point where it obviates the need for formative 
systems) and improve the quality of the summative data. This will be 
addressed briefly below and will also be the subject of a follow-up 
discussion.
    2. What sort of general design should the assessments that make up 
the summative system have?
    We believe these tests should have at least two major components, 
although it is likely federal funding will address only the initial 
one. Our understanding is that states may augment the common-core 
standards with 15 percent of their own standards. Thus the common-core 
assessment system must provide data on the common standards that are 
strictly comparable across states and must allow states to measure 
state-specific content as needed.
    Because there will be both common-core standards and state 
additions, the tests would likely have at least two major components. 
The first would be the test of common-core standards. This would be 
consistent across all participating states, districts, and schools. 
Note that we do not mean the same exact test form is required but 
rather the same assessment. The common components of the test will be 
designed to yield state, district, school, and individual results on 
the common-core standards and will not include state-specific 
augmentation. The second component could be composed of state-specific 
content or augmentations. Such augmentations could focus solely on the 
up to 15 percent of unique state-specific standards that are in place 
or provide additional measures or coverage of common-core standards. 
These augmentations would be analyzed in tandem with common-core items 
to yield state-specific results.
    Why do we believe that the common-standards components of the 
summative measure should not be customizable, and that state choices 
should be located in state-specific sections? Comparability of results 
on the common-core standards and test development efficiency will be 
high priorities of the system. Comparability across states and the 
economies of scale will be enhanced if there is a common assessment of 
the common standards. Other designs are possible if the ability of 
states to customize the common-core assessment is viewed as desirable, 
but these will likely threaten comparability of results and will lead 
to higher cost.
    In system terms, the approach we recommend means adopting a single 
national delivery package and permitting states (or groups of states) 
to add components as needed, as opposed to ``opening up'' the common 
materials for each state. Finally, this approach allows some states to 
decide they do not need state-specific content, without affecting the 
comparisons on the common components (which embedding items in the 
common core would risk).
    This approach has other advantages: Even if a single consortium 
develops the common-core assessments, states would be free to work with 
whomever they wished for state-specific components. If developers of 
the common-core components of the system were to work to some open and 
shared standards for test material, packaging, and delivery, all 
components could be delivered as a single test by any number of 
assessment-delivery systems. Alternately, the developers of the common-
core assessment could build some special components that could be used 
at state discretion.
    Note that in any of these models, provision will need to be made 
for field testing new content. For the common components, this could 
either be accomplished through a variable section or by embedding 
field-test items within operational sections.
    One open question is how big a system (in terms of assessment 
exercises) would be needed to ensure security. The answer will depend 
on the length of the test window, which in turn depends on the number 
of students who can be tested at any time. It will also be affected by 
the rapidity with which test developers can rotate content, or the 
number of different aggregations of content we can provide.
    A second open question concerns the length of the individual tests. 
It is likely that tests at grades 3 and 4 will be limited to 50 
minutes, while tests at grades 5 through 8 will take 60--120 minutes 
(for both common and state-specific components). High school tests 
could, conceivably, take between 2 and 3 hours. If extended tasks are 
used, assessment time may need to exceed these limits.
    3. What grades and subjects?
    We assume that the summative assessment system will include end-of-
year ELA and math tests at grades 3 through 8, all of which need to 
produce individual scores as well as aggregate scores and will need to 
work together to track student growth. As discussed under point 9 
below, these end-of year tests may not be the only components of the 
summative system. At high school, we believe two summative models are 
possible: either end-of-domain tests in both ELA and math that cover 
the knowledge and skills needed to be ready for college and career 
training, or a series of end-of-course tests. Each approach has 
advantages and disadvantages, depending on the priorities selected.
    Annual testing between grades 3 and 8 will be an optimal way to 
support student growth modeling, which we believe to be a key goal of 
the new system. It also provides data at fixed points, which should be 
usable by parents, teachers, and policymakers.
    One assumption we make is that these tests could replace the 
current generation of No Child Left Behind (NCLB) assessments. Through 
use of technology, we believe we will be able to provide a state-of-
the-art range of accommodations to students who need them. We also 
believe that through use of computer administration, we may be able to 
tailor tests to individual students. Such personalized assessment may 
even cause us to reevaluate the need for modified (or ``2%'') 
assessments. Additionally, it would be appropriate to think of 1% or 
Title 3 tests as part of a common assessment system that shares data 
among components.
    Closing comments in this area: End-of-year testing at grades 3 
through 8 is likely necessary given an educational system that is still 
organized by grade and which needs annual accountability data. However, 
just because students are ``housed'' into educational institutions 
based on this classification system, it does not mean that this should 
restrict how we teach and assess these students. For example, the 
system we propose here could evolve into an on-demand system that will 
make sense as school schedules and student needs continue to evolve. It 
also would allow for a system in which students take tests when they 
are ready based on their personalized instructional paradigm. Second, 
as mentioned above, one could consider systems in which accountability 
data are not solely the province of the end-of-year test (see point 9 
below). This would not, of course, necessarily obviate the need for the 
end-of-year snapshot of what students know and can do.
    4. Cross-grade or within-grade scaling and reporting?
    Given the overall interest in student growth metrics (and the use 
of such metrics in teacher evaluation), the assessment should support 
cross-grade comparability, and the assessment will need to be set up to 
allow for such comparisons. This work will, of course, be greatly 
facilitated if the content standards and expectations are coherent 
across grades. In addition to supporting growth modeling, cross-grade 
comparability facilitates another element we view as desirable in the 
system: the ability of flexible administration engines to select ``out-
of-grade'' content for either advanced or struggling students. We 
assume that this out-of-grade content will mirror the instruction the 
student has received regardless of his or her grade level or age. Note 
that use of off-grade content is forbidden under current rules of NCLB, 
and USED would have to facilitate dispensation.
    While we believe we need cross-grade comparability, we will also 
need to have within-grade performance levels. This does not pose a 
problem but simply must be considered as part of the work planning.
    There are interesting questions that will need to be answered in 
this area. For example, while it is likely that some constituents will 
want to see tests at grades 3 through 8 on a vertical scale (perhaps 
mistakenly thinking vertical scales are required for growth measures), 
it is not at all clear that high school tests should (or need to be) 
placed on such a scale. Frankly, the notion of comparing performance in 
various high school subjects, such as chemistry and Algebra II, is 
problematic in itself. In the past, states have not tended to require 
this, and high school content may not be as friendly to cross-grade 
comparability. But there is a real need for data on whether or not high 
school students are proceeding as necessary.
    It is worth mentioning that there are several ways to produce 
measures of growth and cross-grade comparability. How the requirements 
of specific growth models affect the system will need to be studied, 
and we plan to devote more thought to this topic as follow up to this 
paper.
    Two closing points: First, the need for cross-grade comparability 
is likely to be required for the common-core standards. State-specific 
augmentations may or may not need to support such cross-grade 
comparability.
    Second, given the number of standards and the pressures on 
assessment time available, it would make the most sense from a 
measurement standpoint to establish any passing scores on the summative 
system as a whole and not just at the level of specific standards. We 
will almost certainly need to produce sub-score and collateral 
information as well as disaggregated performance by standard (and other 
breakouts), and the presence of an underlying comparability paradigm 
would facilitate all these purposes. Such system wide comparability may 
also be used to guide any adaptive administration and an integrated 
system to improve the quality of the standard-level data. Reporting 
meaningful information at the standard level will become easier if new 
standards are fewer and more cognitively distinct.
    5. National or state-specific scales and performance levels?
    The system must support both common and state-specific performance 
levels. A comprehensive system might work as follows: There could be a 
single-scale score and a set of achievement levels on the common test 
component. This would allow for comparisons among participating states 
and placement of individual scores in the context of the common 
standards. Recall that this is possible because each state in a 
consortium is taking the same assessment on the same standards.
    The common-core standards assessments will likely need to be 
internationally benchmarked. The easiest way to accomplish this is 
through judgmental processes: either through the use of the 
internationally benchmarked standards as key descriptors of goals in a 
level-setting process, or through some assurance from an independent 
body that the standards themselves conform to international best 
practice and that the assessment is aligned with the standards. 
Alternately, the system could rely on statistical linkages to 
international studies such as Trends in International Mathematics and 
Science Study (TIMSS) and Progress in International Reading Literacy 
Study (PIRLS). Regardless, a key step involves meeting with 
stakeholders to determine the specific uses stakeholders wish to make 
of the international benchmarks.
    This paper assumes that the new assessments will have performance 
standards. Therefore, using appropriate methods and sources of 
information to set standards will be of key import. Standard setting is 
often not considered when designing an assessment, but the validity of 
claims made based on the assessment will be no stronger than the 
performance standards allow. Assessment designers should ensure that 
crucial evidence is brought to bear regarding topics such as what 
successful students around the world know and can do in different 
grades, and what sorts of texts should students be prepared to 
encounter to succeed at the next grade. Overall, we should have a solid 
evidentiary basis for stating that students have reached a level that 
will allow them to succeed in future education.
    The comments above relate to the scale and performance levels for 
the common-core components of the assessment. In addition to this, 
there will need to be separate state-specific scales and levels for 
states that augment the common core with their own materials. In all 
likelihood, these would be based on state-by-state analyses of the 
conjoined sets of items (that is, common plus state specific). In 
practical terms, it may be hard for states to explain major differences 
between their standards and national standards. But the system needs to 
support these types of data.
    6. The use of technology in delivery
    One of the major questions facing the designers of a common-
standards assessment is ``how much technology, how soon?'' Certainly, 
the current state of technology availability in many states and the 
current price structures of testing programs would argue that an 
assessment system should offer a paper-based test, or at least a 
program that could be administered on paper as well as online. In spite 
of this, we believe that the assessment of common standards should be 
computer-based (or other technology-enabled) tests in which paper is 
used solely for certain special accommodations. There are several 
reasons for this:
    <bullet> Emerging standards in both mathematics and ELA define 
constructs that can only be measured through the use of technology. 
This is likely to be true in subjects such as science as well. 
Maintaining parallel paper and computer systems on which results were 
supposed to be interchangeable would effectively prevent measurement of 
such skills. This ``assessment tail wagging the education dog'' has 
been a large criticism of education reform efforts in the past, and we 
want to avoid this.
    <bullet> Technology allows for the use of a range of forward-
looking exercise types, including item types that ask students to 
engage with digital content and formats, and bring to bear skills that 
wouldn't (and couldn't) be invoked on a paper test.
    <bullet> Testing some skills on paper may simply yield invalid 
results in the future.
    <bullet> Technology allows for flexible (adaptive) and on-demand 
testing, which we believe should be a part of this design.
    <bullet> Technology allows for electronic scoring of some sorts of 
items, and thus for use of a broader range of items than does paper-
based testing. Technology also facilitates the distribution of student 
responses to teachers, monitoring the quality of teacher scoring, and 
increased opportunities for professional development in terms of 
assessment development and scoring.
    <bullet> Rapid return of scores and seamless data/information 
interchange is facilitated by technological delivery.
    <bullet> It is easier to see the summative test (or tests) as part 
of an integrated-assessment system if it is built around a technology 
platform based on accepted standards for content and data transfer.
    <bullet> We assume technology will continue to improve, become 
easier to use and more common in the future such that our proposed 
system will be operationally feasible.
    <bullet> Technology allows for provision of a range of 
accommodations for students with disabilities and English-language 
learners that might not otherwise exist.
    <bullet> Using technology as the single delivery paradigm 
simplifies issues with comparability.
    This decision, of course, has major operational implications. Even 
with expanded technology access we cannot rely solely on mass 
administrations, so scheduling becomes essential. Testing windows will 
need to be open long enough to accommodate test takers, and exercise 
pools will need to be large enough to protect test security. The final 
system must allow for trade-offs between assessment purpose (like high-
stakes graduation decisions) and the size of the testing window 
allowed. Finally, since it is likely that state-specific content will 
be developed by a number of different entities, we would need a set of 
data transfer and delivery protocols that could be used by all 
involved.
    As mentioned above, we believe that the summative-assessment system 
should make use of adaptive administration. A variety of approaches may 
be used for this purpose (e.g., traditional computer-adaptive testing, 
multistage testing, variable or fixed-length testing). The appropriate 
adaptive testing solution will depend on the content and structure of 
the exams.
    Some arguments in support of adaptive testing follow:
    <bullet> It allows for on-demand testing.
    <bullet> It allows for somewhat shorter testing times than linear 
testing, which helps from various perspectives, particularly if access 
to computers is an issue.
    <bullet> It allows us to measure the ``higher'' standards, while at 
the same time gaining some meaningful information about what lower 
performers know and can do.
    <bullet> Considered appropriately, it may allow us to identify 
standards on which students are struggling without unduly lengthening 
tests. Particularly in ELA with a heavy emphasis on authentic reading, 
we believe variations in traditional CAT approaches (e.g., section-
based or passage-based adaptivity) can be implemented in an 
advantageous manner. Again, this will allow for far more 
personalization than traditional assessments.
    <bullet> It will allow us to get better ``bang for the buck'' out 
of open-ended/performance-based testing.
    One possible challenge is the use of items that require human 
scoring in an adaptive system. There are in fact ways to use such 
items. In a multistage system, for example, routing decisions can be 
made based on a machine-scorable stage, with performance or open-ended 
exercises requiring human scoring administered during later stages.
    While we believe the assessment should be adaptive, it is not 
certain we will be able to make it adaptive in the first year of 
administration. We would, of course, do large-scale piloting of items 
before roll-out. However, given issues associated with calibrating a 
pool under sub-optimal motivational conditions, it is likely that in 
the roll-out year of the program we would assemble a large number of 
linear tests and assign these randomly to candidates. The system could, 
however, use adaptive administration in subsequent years.
    7. What item types should we assume?
    This question is in many ways premature: Final internationally 
benchmarked standards do not exist at all grades. Decisions about the 
sorts and arrays of tasks that ought to be included on these 
assessments should be the result of a careful Evidence-Centered Design 
(ECD) process in which we gather expert groups, review research, and 
identify the sorts of behaviors that would convince us that students 
have reached the stated standards. Simply stated, we want to use the 
assessment task or item that most appropriately measures the construct 
desired.
    However, we need working assumptions. Our task design should be 
guided by the general goal of measuring each construct as validly, 
effectively, and thoroughly as possible. This will certainly involve a 
range of exercise types that move well beyond traditional multiple 
choice. These may include, though not be limited to, scenario-based 
tasks, long and short constructed responses, tasks that involve the 
exercise of technology skills, and simulations. This is particularly 
true given the general goals of providing college readiness 
information, eliciting more than content mastery information (i.e., 
problem solving and critical analysis), and exploiting the assessment 
medium (namely online technology).
    To optimize the speed and cost-effectiveness of scoring these 
items, we should be prepared to adopt a range of strategies. First, we 
may need to push the limits of what can be scored electronically: 
machine scorable must not equal multiple choice. Computerized-scoring 
systems are getting more effective all the time. Second, we can and 
should develop better ways to analyze data obtained from simulations 
that go beyond simple student responses. Third, while some tasks can be 
machine scored, we must realize that emerging standards will likely 
necessitate the use of items that, given the current state of scoring 
technology, will require human scoring for some number of years. If 
this is true, we will have to find ways to balance the need for these 
items with other imperatives. We will also need to make effective use 
of technologies for distributing responses for scoring, and for 
monitoring and assuring the quality of such scoring. To summarize, we 
believe it is likely that the new assessment system will need to make 
use of three types of scoring: simple-machine scoring using online 
testing, intelligent scoring using online technologies, and human 
scoring using online technologies.
    Human scoring is, of course, in many ways a positive. It allows 
items that are not constrained by limits of the current electronic-
scoring systems. Use of teachers in the scoring process would also 
represent a powerful professional development activity. Teacher scoring 
in a system that will also be used for teacher evaluation will 
necessitate careful safeguards. Therefore, any final design will need 
to find ways to use human-scored items in ways that optimize the 
instructional and professional development impact of those items, 
without placing undue or unrealistic burdens on the system. We should 
also be prepared to make aggressive use of emerging computer 
constructed-response scoring technologies, to make sure that teacher 
involvement is in fact professional development and not solely 
additional labor. We believe there are ways to involve teachers in 
scoring, without necessarily expecting them to conduct all the scoring 
(at least of the common-core standards components that require rapid 
score turnaround). The good news is that much progress has been made 
recently in using automation in human scoring in ways that improve 
quality and professional development potential.
    During the design effort, other questions will emerge about the 
sorts of items and tasks that can be used. These will surround issues 
like use of audiovisual stimuli (as called for in the Council of Chief 
State School Officers-National Governors Association ELA standards), as 
well as interactive tasks involving spreadsheets and databases. One 
interesting matter that will need to be resolved early in the process 
concerns the inclusion of tasks that measure ELA standards for speaking 
and listening (if these are in the final version of any set of 
standards). This is not uncommon in current state standards, but these 
skills are rarely if ever covered in assessments (which are normally 
limited to reading and writing). We will need to decide how to assess 
in these areas as this has broad implications for test design and 
administration. One possible approach is to include listening and 
speaking in the individual score portions of high school tests (which 
can be longer), and only assess these skills at state discretion in 
tests at earlier grades depending upon the goals of assessing listening 
and speaking or the outcome measures desired in these domains.
    If we are to do something new and different, it is necessary that 
our items and tests be developed with an awareness of how students 
learn. A test built around an understanding of available learning 
progressions is likely to be a better provider of information to 
formative components of the system. Items that model good learning and 
instruction should make ``teaching to the test'' less of a problem. Of 
course, this sort of thinking cannot mean that we fail to meet 
psychometric standards for quality, score comparability, and fairness, 
particularly given the high-stakes nature of the potential use for high 
school graduation, college readiness/college placement and possibly 
college admissions. Finding the appropriate balance will be key.
    8. Pre-equating or post-equating?
    Given the discussion immediately above (that is, a desire to use 
adaptive testing), one might assume we would also recommend a pre-
equating approach. It will certainly be necessary to calibrate the 
items to allow routing decisions. But, if the testing windows are at 
all long, and vary by states, post-equating might make some states wait 
rather long for scores. Therefore, we believe the system will 
eventually need to be geared toward pre-equating as allowed. One 
complexity associated with pre-equating, however, is the use of human-
scored items. Pre-equating will only work if we can ensure that the 
scoring of the responses is of the same effective rigor as that used to 
calibrate the items; this will require very careful control over the 
human-scoring process.
    Finally, it is almost certain that some form of post-equating and 
post-calibration will be needed during the first year of the program.
    9. Should the summative assessment be a single test or use multiple 
sources of data?
    In the previous sections, we have for the most part discussed the 
tests as if they were given at fixed points during some course of study 
(either the end of a school year or the end of high school). 
Furthermore, we believe that such tests should be part of any coherent 
system of assessments. However, this is not the same as arguing that 
they should be the only components of a summative system.
    There are several ways in which one could consider other 
``assessment events'' or data sources to be formalized parts of the 
summative-assessment system. In one family of approaches, there would 
be multiple assessments over the course of the year whose results would 
be aggregated into a summative score or scores. Such an approach could 
conceivably take one of two general forms. In the first, a larger 
assessment that would theoretically cover the entire year would be 
broken into component pieces covering different, and possibly non-
overlapping, sets of content and skills. For example, a three-hour test 
might be broken into three one-hour tests that would be given over the 
course of the year. In this conception, the end-of-year test would 
essentially cover the last third of the year. A similar possibility is 
to build assessments around discrete instructional units (even if those 
were not equally spaced over the course of the year).
    A variant on this approach is a system in which the end-of-year 
test did cover the entire year's worth of content, but that earlier 
standardized tests covered content from the first part of the school 
year in more depth. This is similar to the ``midterm-final'' approach 
used in many universities and high schools, in which scores from 
midterms and finals are averaged according to some preset weights and 
often combined with other information to derive a final grade.
    There are obvious advantages to such approaches and real challenges 
as well. On the plus side, one would get some early-warning data on 
students from the summative system itself; students might be able to 
retake modules they have failed over the course of the year. Because 
such systems would allow more aggregate data, they might give more 
stable results. On the other hand, the challenges are real. Such a 
system almost certainly involves making decisions about the ways 
content and skills are to be ordered (or at least combined) in the 
curriculum, and this may be beyond what is possible. While the 
aggregate data may be solid, the reliability of the periodic measures 
may be lower than one might like, which will be a problem if those data 
are used on their own for high-stakes purposes. Finally, in the second 
of these models, the system would need to be prepared to deal with a 
possible conundrum. If two districts got the same average scores on the 
end-of-year test, that would normally be interpreted to mean that those 
two districts ended that school year ``in the same place.'' Rating one 
district higher because of performance on intermediate ratings might be 
problematic.
    An alternate model, used in some other countries, is described 
below. There would still be an end-of-year test, but accountability 
scores would also use data from standardized projects conducted over 
the period of the course of study (for example, research papers, 
laboratory reports, or book summaries). Scores from these projects 
would represent a fixed percentage of the final summative score.
    This model would have clear advantages and disadvantages as well. 
Through making these sorts of tasks part of a formal accountability 
system, it encourages the use of tasks that are elements of good 
instruction and learning. In addition, this approach avoids the problem 
that usually keeps these sorts of tasks out of large-scale testing: 
they simply take too long to be included in a fixed-event assessment. 
These kinds of tasks might also provide a logical place to rely on 
teacher scoring and to enjoy the professional development benefits 
attendant upon it. Finally, centrally designed tasks and scoring guides 
may be able to mitigate certain comparability issues.
    There are a number of issues that would need to be addressed in 
making such a system operational. It would need mechanisms for ensuring 
that students themselves completed the tasks. While steps might be 
taken to standardize task protocols and scoring rubrics, short of 
adoption of a common curriculum, some choice of tasks would need to be 
provided at the local level. Even with the best safeguards in the 
world, such choice, combined with local scoring, will almost certainly 
call into question the strict comparability of results both over time 
and across jurisdictions. This is not a reason to reject such 
approaches, but rather represents the sorts of trade-offs that must be 
considered carefully and suggests the sort of research that is 
necessary. It may be possible to find interesting compromise positions: 
we might conceptualize an accountability system in which not all data 
elements are used for cross-jurisdiction comparisons, for example.
    The use of assessments or projects conducted over the course of the 
year as part of a formal summative-assessment system is a major and 
important idea. There are challenges to be met before such a system 
could be implemented, and the existence of such a system presupposes 
infrastructures for data maintenance and transfer that are currently 
beyond the scope of many states. Thus it is possible that these 
assessment features will begin as part of the state augmentations 
described above, until such time as they can be added to the 
accountability system. We believe that strong, forward-looking end-of-
year assessments will be part of the system. We also believe that they 
may not be the only elements and that the system available on day one 
may not be the final system. We will consider this more thoroughly in 
follow-up discussions to this paper.
    10. How do we help ensure that the assessment results validly 
support claims being made about students, teachers, and schools?
    We must consider the need for provision of research evidence that 
supports intended uses of scores from the assessment system. Even if we 
start with internationally benchmarked standards, we will need an 
ongoing method for checking and updating these standards, and for 
making attendant changes to test specifications. We may also not be 
able to simply rely on those standards: Since the high school tests 
will claim to measure college readiness, we should plan to have some 
data validating that claim. There are various ways to obtain these 
data; the key point is that some plan to gather validity data should be 
part of the design from the beginning. Discussions of validity data are 
beyond the scope of this paper; we will come back to this topic in a 
later paper.
Conclusion
    We stand at a moment of unprecedented opportunity. Improvements in 
methods and technology, possible agreement on a set of common 
standards, combined with a generous commitment of federal resources, 
should allow us to build assessment systems that provide accountability 
data and instructionally actionable information. However, these 
opportunities will surely be wasted if we do not carefully consider the 
trade-offs inherent in any large-scale assessment design. We must, and 
can, ensure that a new generation of assessments is innovative and 
meets all pertinent psychometric standards for quality, fairness, and 
best practice. This paper represents a first attempt to consider the 
trade-offs and to set up a ``straw design'' consistent with those 
trade-offs.
    While there is reason for caution, the opportunity far surpasses 
the potential problems. We believe that we can create a summative 
assessment system that uses innovative exercise types and computer 
adaptive delivery to measure depth of student understanding and track 
student growth. The system can be designed in ways that allow it to 
work hand-in-hand with formative assessment elements to produce 
instructionally actionable data. We can provide solid data on common-
core standards while giving states a chance to add their own 
augmentations. We can do this in a way that is operationally and 
economically feasible.
    ETS, Pearson, and The College Board are excited to be part of the 
national discussion of new assessment systems. This paper represents an 
attempt to begin discussion by laying out key questions and central 
elements of a possible assessment system. We plan to write further 
papers examining specific topics in more depth. We hope others will 
join in this conversation: only through open communication will the 
country build the assessment system it needs.
                                 ______
                                 
    [The Pearson response to Race to the Top may be accessed at 
the following Internet address:]

http://www.pearsonassessments.com/NR/rdonlyres/CF3F0357-1B0E-4460-96DB-
               6F680994ADFC/0/RacetotheTopAssessment.pdf

                                 ______
                                 
    [Additional submissions by Mr. Wilhoit follow:]

           The Council of Chief State School Officers and the
        National Governors Association Center for Best Practices

                         Common Core Standards

                        memorandum of agreement
    Purpose. This document commits states to a state-led process that 
will draw on evidence and lead to development and adoption of a common 
core of state standards (common core) in English language arts and 
mathematics for grades K-12. These standards will be aligned with 
college and work expectations, include rigorous content and skills, and 
be internationally benchmarked. The intent is that these standards will 
be aligned to state assessment and classroom practice. The second phase 
of this initiative will be the development of common assessments 
aligned to the core standards developed through this process.
    Background. Our state education leaders are committed to ensuring 
all students graduate from high school ready for college, work, and 
success in the global economy and society. State standards provide a 
key foundation to drive this reform. Today, however, state standards 
differ significantly in terms of the incremental content and skills 
expected of students.
    Over the last several years, many individual states have made great 
strides in developing high-quality standards and assessments. These 
efforts provide a strong foundation for further action. For example, a 
majority of states (35) have joined the American Diploma Project (ADP) 
and have worked individually to align their state standards with 
college and work expectations. Of the 15 states that have completed 
this work, studies show significant similarities in core standards 
across the states. States also have made progress through initiatives 
to upgrade standards and assessments, for example, the New England 
Common Assessment Program.
    Benefits to States. The time is right for a state-led, nation-wide 
effort to establish a common core of standards that raises the bar for 
all students. This initiative presents a significant opportunity to 
accelerate and drive education reform toward the goal of ensuring that 
all children graduate from high school ready for college, work, and 
competing in the global economy and society. With the adoption of this 
common core, participating states will be able to:
    <bullet> Articulate to parents, teachers, and the general public 
expectations for students;
    <bullet> Align textbooks, digital media, and curricula to the 
internationally benchmarked standards;
    <bullet> Ensure professional development to educators is based on 
identified need and best practices;
    <bullet> Develop and implement an assessment system to measure 
student performance against the common core; and
    <bullet> Evaluate policy changes needed to help students and 
educators meet the common core standards and ``end-of-high-school'' 
expectations.
    An important tenet of this work will be to increase the rigor and 
relevance of state standards across all participating states; 
therefore, no state will see a decrease in the level of student 
expectations that exist in their current state standards.
Process and Structure
    <bullet> Common Core State-Based Leadership. The Council of Chief 
State School Officers (CCSSO) and the National Governors Association 
Center for Best Practices (NGA Center) shall assume responsibility for 
coordinating the process that will lead to state adoption of a common 
core set of standards. These organizations represent governors and 
state commissioners of education who are charged with defining K-12 
expectations at the state level. As such, these organizations will 
facilitate a state-led process to develop a set of common core 
standards in English language arts and math that are:
    <bullet> Fewer, clearer, and higher, to best drive effective policy 
and practice;
    <bullet> Aligned with college and work expectations, so that all 
students are prepared for success upon graduating from high school;
    <bullet> Inclusive of rigorous content and application of knowledge 
through high-order skills, so that all students are prepared for the 
21st century;
    <bullet> Internationally benchmarked, so that all students are 
prepared for succeeding in our global economy and society; and
    <bullet> Research and evidence-based.
    <bullet> National Validation Committee. CCSSO and the NGA Center 
will create an expert validation group that will serve a several 
purposes, including validating end-of-course expectations, providing 
leadership for the development of K-12 standards, and certifying state 
adoption of the common core. The group will be comprised of national 
and international experts on standards. Participating states will have 
the opportunity to nominate individuals to the group. The national 
validation committee shall provide an independent review of the common 
core. The national validation committee will review the common core as 
it is developed and offer comments, suggestions, and validation of the 
process and products developed by the standards development group. The 
group will use evidence as the driving factor in validating the common 
core.
    <bullet> Develop End-of-High-School Expectations. CCSSO and the NGA 
Center will convene Achieve, ACT and the College Board in an open, 
inclusive, and efficient process to develop a set of end-of--high-
school expectations in English language arts and mathematics based on 
evidence. We will ask all participating states to review and provide 
input on these expectations. This work will be completed by July 2009.
    <bullet> Develop K-12 Standards in English Language Arts and Math. 
CCSSO and the NGA Center will convene Achieve, ACT, and the College 
Board in an open, inclusive, and efficient process to develop K-12 
standards that are grounded in empirical research and draw on best 
practices in standards development. We will ask participating states to 
provide input into the drafting of the common core and work as partners 
in the common core standards development process. This work will be 
completed by December 2009.
    <bullet> Adoption. The goal of this effort is to develop a true 
common core of state standards that are internationally benchmarked. 
Each state adopting the common core either directly or by fully 
aligning its state standards may do so in accordance with current state 
timelines for standards adoption not to exceed three (3) years.
    This effort is voluntary for states, and it is fully intended that 
states adopting the common core may choose to include additional state 
standards beyond the common core. States that choose to align their 
standards to the common core standards agree to ensure that the common 
core represents at least 85 percent of the state's standards in English 
language arts and mathematics.
    Further, the goal is to establish an ongoing development process 
that can support continuous improvement of this first version of the 
common core based on research and evidence-based learning and can 
support the development of assessments that are aligned to the common 
core across the states, for accountability and other appropriate 
purposes.
    <bullet> National Policy Forum. CCSSO and the NGA Center will 
convene a National Policy Forum (Forum) comprised of signatory national 
organizations (e.g., the Alliance for Excellent Education, Business 
Roundtable, National School Boards Association, Council of Great City 
Schools, Hunt Institute, National Association of State Boards of 
Education, National Education Association, and others) to share ideas, 
gather input, and inform the common core initiative. The forum is 
intended as a place for refining our shared understanding of the scope 
and elements of a common core; sharing and coordinating the various 
forms of implementation of a common core; providing a means to develop 
common messaging between and among participating organizations; and 
building public will and support.
    <bullet> Federal Role. The parties support a state-led effort and 
not a federal effort to develop a common core of state standards; there 
is, however, an appropriate federal role in supporting this state-led 
effort. In particular, the federal government can provide key financial 
support for this effort in developing a common core of state standards 
and in moving toward common assessments, such as through the Race to 
the Top Fund authorized in the American Recovery and Reinvestment Act 
of 2009. Further, the federal government can incentivize this effort 
through a range of tiered incentives, such as providing states with 
greater flexibility in the use of existing federal funds, supporting a 
revised state accountability structure, and offering financial support 
for states to effectively implement the standards. Additionally, the 
federal government can provide additional long-term financial support 
for the development of common assessments, teacher and principal 
professional development, other related common core standards supports, 
and a research agenda that can help continually improve the common core 
over time. Finally, the federal government can revise and align 
existing federal education laws with the lessons learned from states' 
international benchmarking efforts and from federal research.
                                 ______
                                 

                       News Release June 1, 2009

Forty-Nine States and Territories Join Common Core Standards Initiative

 NGA Center, CCSSO Convene State-led Process to Develop Common English-
                language arts and Mathematics Standards

    WASHINGTON--The National Governors Association Center for Best 
Practices (NGA Center) and the Council of Chief State School Officers 
(CCSSO) today released the names of the states and territories that 
have joined the Common Core State Standards Initiative: Alabama; 
Arizona; Arkansas; California; Colorado; Connecticut; Delaware; 
District of Columbia; Florida; Georgia; Hawaii; Idaho; Illinois; 
Indiana; Iowa; Kansas; Kentucky; Louisiana; Maine; Maryland; 
Massachusetts; Michigan; Minnesota; Mississippi; Montana; Nebraska; 
Nevada; New Hampshire; New Jersey; New Mexico; New York; North 
Carolina; North Dakota; Ohio; Oklahoma; Oregon; Pennsylvania; Puerto 
Rico; Rhode Island; South Dakota; Tennessee; Utah; Vermont; Virgin 
Islands; Virginia; Washington; West Virginia; Wisconsin; Wyoming.
    In the twenty-six years since the release of A Nation at Risk, 
states have made great strides in increasing the academic rigor of 
education standards. Yet, America's children still remain behind other 
nations in terms of academic achievement and preparedness to succeed.
    By signing on to the common core state standards initiative, 
governors and state commissioners of education across the country are 
committing to joining a state-led process to develop a common core of 
state standards in English language arts and mathematics for grades K-
12. These standards will be research and evidence-based, 
internationally benchmarked, aligned with college and work expectations 
and include rigorous content and skills.
    ``To maintain America's competitive edge, we need all of our 
students to be prepared and ready to compete with students from around 
the world,'' said NGA Vice Chair Vermont Gov. Jim Douglas. ``Common 
standards that allow us to internationally benchmark our students' 
performance with other top countries have the potential to bring about 
a real and meaningful transformation of our education system to the 
benefit of all Americans.''
    ``As state school chiefs, we have been discussing and building 
momentum for state-led, voluntary common standards that are both 
rigorous and internationally benchmarked for the past two years.,'' 
stated CCSSO President and Arkansas Commissioner of Education Ken 
James. ``The broad level of commitment we have received from states 
across the nation for this unprecedented effort is both gratifying and 
exciting. It also clearly illustrates that this is an idea whose time 
has arrived.''
    The Common Core State Standards Initiative is being jointly led by 
the NGA Center and CCSSO in partnership with Achieve, Inc; ACT and the 
College Board. It builds directly on recent efforts of leading 
organizations and states that have focused on developing college-and 
career-ready standards and ensures that these standards can be 
internationally benchmarked to top-performing countries around the 
world.
    The goal is to have a common core of state standards that states 
can voluntarily adopt. States may choose to include additional 
standards beyond the common core as long as the common core represents 
at least 85 percent of the state's standards in English language arts 
and mathematics.
    ``Measuring our students against international benchmarks is an 
important step,'' said Virginia Gov. Timothy Kaine. ``Today, we live in 
a world without borders. It not only matters how Virginia students 
compare to those in surrounding states--it matters how we compete with 
countries across the world.''
    ``Only when we agree about what all high school graduates need to 
be successful will we be able to tackle the most significant challenge 
ahead of us: transforming instruction for every child,'' said CCSSO 
President-Elect and Maine Education Commissioner Sue Gendron. ``Common 
standards will provide educators clarity and direction about what all 
children need to succeed in college and the workplace and allow states 
to more readily share best practices that dramatically improve teaching 
and learning. Our graduates and frankly, the future of our economy, 
cannot wait any longer for our educational practices to give equal 
opportunity for success to every student.''
    The NGA Center and CCSSO are coordinating the process to develop 
these standards and have created an expert validation committee to 
provide an independent review of the common core state standards, as 
well as the grade-by-grade standards. This committee will be composed 
of nationally and internationally recognized and trusted education 
experts who are neutral to--and independent of--the process. The 
college and career ready standards are expected to be completed in July 
2009. The grade-by-grade standards work is expected to be completed in 
December 2009.
    Founded in 1908, the National Governors Association (NGA) is the 
collective voice of the nation's governors and one of Washington, 
D.C.'s most respected public policy organizations. Its members are the 
governors of the 50 states, three territories and two commonwealths. 
NGA provides governors and their senior staff members with services 
that range from representing states on Capitol Hill and before the 
Administration on key federal issues to developing and implementing 
innovative solutions to public policy challenges through the NGA Center 
for Best Practices. For more information, visit www.nga.org.
    The Council of Chief State School Officers (CCSSO) is a 
nonpartisan, nationwide, nonprofit organization of public officials who 
head departments of elementary and secondary education in the states, 
the District of Columbia, the Department of Defense Education Activity, 
and five U.S. extra-state jurisdictions. CCSSO provides leadership, 
advocacy, and technical assistance on major educational issues. The 
Council seeks member consensus on major educational issues and 
expresses their views to civic and professional organizations, federal 
agencies, Congress, and the public. www.ccsso.org
                                 ______
                                 

               The Common Core State Standards Initiative

    The Common Core State Standards Initiative is a significant and 
historic opportunity for states to collectively develop and adopt a 
core set of academic standards in mathematics and English language 
arts. Forty-eight states and three territories have joined the Common 
Core State Standards Initiative. The initiative is being jointly led by 
the NGA Center for Best Practices and the Council of Chief State School 
Officers in partnership with Achieve, ACT, and the College Board. It 
builds directly on recent efforts of leading organizations and states 
that have focused on developing college- and career-ready standards and 
ensures these standards are evidence- and research-based and 
internationally benchmarked to top-performing countries.
Why is this initiative important?
    Currently, every state has its own set of academic standards, 
meaning public education students in each state are learning to 
different levels. All students must be prepared to compete with not 
only their American peers in the next state, but with students from 
around the world. If all 51 states and territories adopt the common 
core state standards, this initiative will affect 45.1 million students 
which is about 91 percent of the student population (Source: 
SchoolDataDirect.org; 2007).
Why is a common core of state standards good for students?
    These standards will help prepare students with the knowledge and 
skills they need to succeed in college and careers and to be prepared 
to compete globally. Additionally, expectations for students will be 
consistent across all states and territories; this consistency will 
support students transitioning between states. Also, clearer standards 
will help students better understand what is expected of them and allow 
for more self-directed learning.
Why is a common core of state standards good for parents?
    A common core of state standards will help parents understand what 
is expected of students and for college and work success. This 
understanding of what is expected of students will provide parents the 
opportunities to meaningfully engage in their children's education.
Why is a common core of state standards good for educators?
    A common core of state standards will allow for more focused pre-
service and professional development. Additionally, a common core will 
help assure that what is taught is aligned with assessments including 
formative, summative, and benchmarking. Also, educators will have the 
opportunity to tailor curriculum and teaching methods and promote the 
sharing of best practices.
Why is a common core of state standards good for states?
    A common core of state standards will clearly articulate to 
parents, teachers, and the general public expectations for students. 
Shared standards will also help states better evaluate policy changes 
and identify best practices and needs for students and educators.
What is being produced and when?
    A draft of the common core of state standards in mathematics and 
English language arts is available for public comment on 
www.corestandards.org. They are expected to be validated in November 
2009. Additionally, in the winter of 2009/2010, the draft standards for 
grades K12 will be released.
What does the process look like?
    One of the first official steps in the Common Core State Standards 
Initiative was for CCSSO and the NGA Center to form a National Policy 
Forum which met initially in January 2009. This forum is intended as a 
way to establish a shared understanding of the scope and elements of 
the common core state standards initiative and coordinate 
implementation and adoption.
    The Standards Development Work Group is currently engaged in 
determining and writing the college and career readiness standards in 
mathematics and English language arts. This group is composed of 
content experts from Achieve, ACT, and the College Board. The Work 
Group's deliberations will be confidential throughout the process. 
States and national education organizations will have an opportunity to 
review and provide evidence-based feedback on the draft documents 
throughout the process.
    Also, as a step in the standards development process, CCSSO and the 
NGA Center are overseeing the work of a Feedback Group. The role of 
this Feedback Group is to provide information backed by research to 
inform the standards development process by offering expert input on 
draft documents.
    The final step in the development of these standards is the 
creation of an expert Validation Committee comprised of national and 
international experts on standards and in the content areas. This group 
will review the process and substance of the common core state 
standards to ensure they are research and evidence-based and will 
validate state adoption of the common core standards. Members of the 
committee will be nominated by governors and chiefs of the 
participating states and selected by a group of four governors and four 
chiefs.
What will the common core standards look like?
    The common core state standards will be fewer, clearer, and higher. 
They will articulate to parents, teachers, and the general public 
expectations for what students will know and be able to do grade by 
grade and when they graduate from high school. The standards will be 
internationally benchmarked, evidence- and research-based, and ready 
for states to adopt.
What happens after the common core standards are developed?
    Adoption of the common core state standards is voluntary for 
states; states choosing to align their standards to the common core 
state standards have agreed the common core will represent at least 85 
percent of the state's standards in mathematics and English language 
arts. Additionally, there is an obvious role for assessment; some 
states will voluntarily come together to develop new, innovative, 
common assessments.
What happens after states adopt common core standards?
    The common core state standards are the first step in transforming 
our education system. For systemic change to occur educators must be 
supported (e.g., time, resources, professional development) in changing 
classroom practice based on the standards. Instructional materials and 
assessments that align to the standards and measure and support student 
progress will need to be developed.
How can my organization get involved?
    <bullet> Visit the Common Core State Standards Web site at 
www.corestandards.org
    <bullet> Subscribe to Common Core State Standards updates at 
www.ccsso.org or the NGA newsletter at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="056f6a6c6b286b62646b607276457164696e2b6b62642b6a7762">[email&#160;protected]</a>
    <bullet> Write a statement of support for the initiative and send 
it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b4b8babab8b9a4a3b6b9b3b6a5b3a497b4b4a4a4b8f9b8a5b0">[email&#160;protected]</a> and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82f5e7e0efe3f1f6e7f0c2ece5e3acedf0e5">[email&#160;protected]</a>
                                 ______
                                 

                 Common Core State Standards Initiative

                       Frequently Asked Questions

    What is the Common Core State Standards Initiative?
    This Common Core State Standards Initiative is a significant and 
historic opportunity for states to collectively accelerate and drive 
education reform toward the ultimate goal of all children graduating 
from high school ready for college, work, and success in the global 
economy. The initiative will build off of the research and good work 
states have already done to build and implement high-quality standards. 
The standards will be research- and evidence-based, aligned with 
college and work expectations, include rigorous content and skills, and 
be internationally benchmarked.
    Why is the Common Core State Standards Initiative important?
    Today we live in a world without borders. To maintain America's 
competitive edge, we need all of our students to be well prepared and 
ready to compete with not only their American peers, but with students 
from around the world. These common standards will be a critical first 
step to bring about real and meaningful transformation of our education 
system to benefit all students.
    States know that standards alone cannot propel the systems change 
we need. The common core state standards will enable participating 
states to:
    Articulate to parents, teachers, and the general public 
expectations for students;
    Align textbooks, digital media, and curricula to the 
internationally benchmarked standards;
    Ensure professional development for educators is based on 
identified need and best practices;
    Develop and implement an assessment system to measure student 
performance against the common core state standards; and
    Evaluate policy changes needed to help students and educators meet 
the common core state college and career readiness standards.
    Who is leading the Common Core State Standards Initiative?
    The Council of Chief State School Officers (CCSSO) and the National 
Governors Association Center for Best Practices (NGA Center) have 
initiated a state-led process of developing and adopting a common core 
of state standards.
    As part of this process, they have convened a National Policy Forum 
composed of signatory national organizations (e.g., National School 
Boards Association, Council of Great City Schools, and many others) to 
share ideas, gather input, and inform the common core state standards 
initiative.
    How will states adopt the common core state standards?
    States will adopt the common core state standards through a process 
that respects unique state contexts. CCSSO and the NGA Center will ask 
states to share their adoption timeline and process in early 2010, when 
the K-12 common core state standards are completed. A validation 
committee will verify that states have accurately adopted the common 
core state standards.
                                process
    What will make this process different from other efforts to create 
common standards?
    Both the timing of this initiative as well as the process gives it 
a high probability for success. There is a growing belief among state 
leaders, education leaders, and business leaders that differences in 
state standards, in an era of increasing student mobility and global 
competition, no longer make sense.
    This process is different since it is a state-led, versus a 
federal, effort and has the support of several major national 
organizations, including CCSSO, the NGA Center, National Association of 
State Boards of Education, the Alliance for Excellent Education, the 
National Parent Teacher Association, the American Association of School 
Administrators, the Hunt Institute, and the Business Roundtable,, and 
involves participation of leading standards developers from Achieve, 
ACT, and the College Board.
    States have been the leaders of standards-based reform efforts. The 
proposed adoption process respects and takes into consideration unique 
state contexts and encourages states to adopt the common core state 
standards.
    Are these national standards?
    No. This initiative is driven by collective state action and states 
will voluntarily adopt the standards based on the timelines and context 
in their state.
    Who or what entity determines the common core state standards?
    CCSSO and NGA Center are responsible for the development and cross-
state adoption process.
    A Standards Development Work Group is responsible for determining 
and writing the common core state standards. Click here to view the 
list of work and feedback group members.
    A Feedback Group provides information backed by research to inform 
the standards development process by offering expert input on draft 
documents.
    A Validation Committee composed of independent, national experts 
will review the process and substance of the common core state 
standards to ensure they are research and evidence based and will 
validate state adoption of the common standards. Members of the 
validation committee will be selected by governors and chiefs.
    Members of the work and feedback group are listed on the site 
www.corestandards.org.
    By what criteria will the standards be judged? Who or what entity 
sets such criteria?
    The standards will be judged based on research and evidence to 
ensure that they meet the following criteria:
    Aligned with college and work expectations
    Inclusive of rigorous content and application of knowledge through 
high-order skills
    Internationally benchmarked
    Criteria have been set by states, through their national 
organizations CCSSO and the NGA Center.
    What is the role of the validation committee?
    The validation committee is charged with validating the process and 
products of the Common Core State Standards Initiative, the college and 
career readiness standards in English language arts and mathematics. 
The committee will also validate state adoption of the common core. The 
group will provide feedback and suggested revisions during the 
standards development and will use evidence as the driving factor in 
validating the common core state standards. The future role of the 
validation committee will be determined as the initiative proceeds.
    How was the validation committee nominated?
    Nominations for the validation committee were open states and 
national organizations. In particular, governors and chief state school 
officers were invited to nominate two individuals to the committee 
based on a set of criteria.
    How was the validation committee selected?
    The validation committee members were confirmed by a group of six 
governors with leadership positions at NGA and six chiefs on the CCSSO 
executive board. The governors and chiefs were provided with a full 
list of nominees and recommended members suggested by CCSSO and the NGA 
Center.
    What is the expertise of those serving on the validation committee?
    The validation committee members were chosen based on their 
national or international expertise on standards and demonstrated 
record of knowledge in English language arts, mathematics or a related 
field (e.g., special education, assessment development, curriculum 
development). Consideration was also given to ensuring a diversity of 
perspectives and expertise on the committee.
    What grades will be covered in the common core state standards?
    The English-language arts and math standards will be K-12 
standards. This will not cover pre-k, but the common core state 
standards will be informed by research from the early childhood 
community.
    How are teachers involved in the common standards initiative?
    NGA and CCSSO have asked for and received feedback from national 
organizations representing educators, such as the National Education 
Association (NEA), American Federation of Teachers (AFT), National 
Council of Teachers of Mathematics (NCTM), and National Council of 
Teachers of English (NCTE). These organizations each brought together 
groups of teachers to provide specific, constructive feedback on the 
standards. The feedback was used to inform the public draft of the 
college- and career-readiness standards. Numerous teacher organizations 
are also involved with the initiative through the National Policy 
Forum, which provides a means to share ideas, gather input, and inform 
the common core state standards initiative.
    Individual teachers and practitioners can also submit comments and 
feedback on the standards through the web site www.corestandards.org.
    What does this work mean for students with disabilities and English 
language learners?
    In the development of these standards, the inclusion of all types 
of learners was a priority. Chosen language was intended to be open and 
accessible to different learners.
    How will we be sure that the standards are based on evidence and 
not on individual beliefs about what are important?
    The validation group of independent, national experts will review 
the process and substance of the common core state standards delineated 
by the standards development group to ensure they are research and 
evidence based.
    Why are the common core state standards just in English-language 
arts and math? Are there plans to develop common standards in other 
areas in the future? Will this work just narrow the curriculum in 
schools?
    English-language arts and math were the first subjects chosen for 
the common core state standards since states have the longest history 
of standards in these areas, they are the core of our current national 
accountability system, and they provide the greatest areas of leverage. 
Other content areas and domains are crucial to children's education and 
their success in college and careers. Once the English language arts 
and math standards are developed, states plan to develop a common core 
of standards in science and potentially additional subject areas. The 
emphasis now is on the English-language arts and math standards because 
these two subjects are foundational skills.
    The common state standards should not narrow the curriculum since 
the standards will be fewer than current standards, allowing teachers 
to create deep, multi-disciplinary projects and lessons that help their 
students reach the standards.
    Will these standards incorporate both content and skills?
    Both content and skills are important and will be incorporated in 
the common core state standards. One of the criteria by which the 
standards will be determined is whether or not they are inclusive of 
rigorous content and application of knowledge through high-order 
skills.
                     implementation and future work
    What will these common core state standards mean for students?
    This initiative will potentially affect 45.1 million students which 
is about 91 percent of the student population (SchoolDataDirect.org, 
2007). Currently, every state has its own set of academic standards, 
meaning public education students in each state are learning to 
different levels. This initiative will allow students equal access to 
an excellent education regardless of where they live. This next 
generation of students must be prepared to compete with not only their 
American peers in the next state, but with students from around the 
world. These standards will help prepare students with the knowledge 
and skills they need to succeed in college and careers
    How will these standards impact teachers?
    The common core state standards will allow for more focused pre-
service and professional development; provide the opportunity for 
teachers to be involved in the development of assessments at classroom 
and state levels that are truly linked to curriculum and student 
achievement; inform the development of a curriculum that promotes deep 
understanding for all children; and because the standards are fewer, 
teachers will be able to use their professional expertise in utilizing 
multiple strategies to best support learning for all students.
    It is also clear that educators will require additional supports 
and resources to help students meet these fewer, clearer, and higher 
expectations.
    Will the Common Core State Standards be updated?
    Yes. There will be an ongoing state-led development process that 
can support continuous improvement of this first version of the common 
core state standards based on research and evidence-based learning.
    Will common assessments be developed? Will one national test be 
created that looks like the current tests we have today?
    States know that standards alone cannot propel the systems change 
we need. Assessments aligned with the common core state standards will 
play an important role in making sure the standards are embedded in our 
education system.
    Some states will voluntarily come together to develop new 
innovative, common assessments as part of the Race to the Top program. 
However, states do not want to see one national assessment given once a 
year that relies on multiple-choice items. A common assessment system 
will include multiple forms of assessment so that what a student knows 
and can do, not the form of the assessment, determines performance. An 
assessment system must provide assessment for learning as well as 
assessment of learning.
    Instructional materials and curricula are key components to making 
standards usable and real in the classroom. Will you be creating common 
instructional materials and curricula?
    The standards must be aligned to assessments and classroom practice 
to be effective. CCSSO and the NGA Center are focusing now on 
developing high-quality standards for states to adopt. NGA and CCSSO 
understand the importance of instructional materials in order to ensure 
the teachers have tools to successfully implement these standards.
    What is the role of the federal government in this initiative?
    The federal government can:
    Support this effort through a range of tiered incentives, such as 
providing states with greater flexibility in the use of existing 
federal funds, supporting a revised state accountability structure, and 
offering financial support for states to effectively implement the 
standards as through the Race to the Top Fund authorized in the 
American Recovery and Reinvestment Act of 2009.
    Provide additional long-term financial support for the development 
and implementation of common assessments, teacher and principal 
professional development supports, and a research agenda that can help 
continually improve the common core state standards over time.
    Revise and align existing federal education laws with the lessons 
learned from states' international benchmarking efforts and from 
federal research.
    What is the timeline for the common core state standards 
initiative?
    Key dates in the project are identified below.
    November 2009--College- and career-readiness standards validated.
    Winter 2009/2010--K-12 common core state standards in English-
language arts and mathematics completed and publicly released.
    Early 2010, states submit timeline and process for adoption of 
common core state standards in English-language arts and mathematics.
                                 ______
                                 
    [Whereupon, at 1:15 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
